Report No. D-2007-042        January 2, 2007




   Potential Antideficiency Act Violations
     on DoD Purchases Made Through
             Non-DoD Agencies
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-9142 (DSN 664-9142) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

ADA                   Antideficiency Act
CIFA                  Counterintelligence Field Activity
CSC                   Client Support Center
DMDC                  Defense Manpower Data Center
DOI                   Department of the Interior
ESC                   Electronic Systems Center
FTS                   Federal Technology Service
FMR                   Financial Management Regulation
GAO                   Government Accountability Office
GSA                   General Services Administration
IG                    Inspector General
IT                    Information Technology
JDIMS                 Joint Detainee Information Management System
JPRA                  Joint Personnel Recovery Agency
MIPR                  Military Interdepartmental Purchase Request
NASA                  National Aeronautics and Space Administration
OIG                   Office of Inspector General
OUSD(C)/CFO           Office of the Under Secretary of Defense (Comptroller)/Chief
                         Financial Officer
O&M                   Operations and Maintenance
RDT&E                 Research, Development, Testing, and Evaluation
USD(C)/CFO            Under Secretary of Defense (Comptroller)/Chief Financial Officer
USSOCOM               U.S. Special Operations Command
                     Department of Defense Office of Inspector General
Report No. D-2007-042                                                                  January 2, 2007
      (Project No. D2005-D000CF-0222.001)

          Potential Antideficiency Act Violations on DoD Purchases
                     Made Through Non-DoD Agencies

                                        Executive Summary

Who Should Read This Report and Why? DoD contracting officials, program
managers, and financial managers should read this report because it discusses widely
misunderstood DoD guidance on funding purchases made through non-DoD agencies and
DoD Financial Management Regulation requirements regarding reviewing and
investigating potential Antideficiency Act violations.

Background. Public Law 108-375, the “Ronald W. Reagan National Defense
Authorization Act for Fiscal Year 2005,” October 28, 2004, section 802, “Internal
Controls for Department of Defense Procurements Through GSA [General Services
Administration] Client Support Centers,” directs the Inspectors General for DoD and
GSA to jointly assess whether the policies, procedures, and internal controls of each GSA
client support center were in place and administered so that they complied with Defense
procurement requirements and then to report the findings to Congress. The DoD Office
of Inspector General issued its first report, D-2005-096, “DoD Purchases Made Through
the General Services Administration,” on July 29, 2005. That report concluded that most
of the client support centers* were not compliant with DoD procurement and funding
requirements. The report disclosed significant financial issues and identified 38 potential
violations of the Antideficiency Act.

Public Law 109-163, the National Defense Authorization Act for Fiscal Year 2006,
section 811, directs the Inspectors General for DoD, the Department of the Interior, the
National Aeronautics and Space Administration, and the Department of the Treasury to
jointly assess policies, procedures, and internal controls of each non-Defense agency to
ensure that they were in place, compliant with Defense procurement requirements, and
properly administered.

This report addresses actions taken on the 38 potential Antideficiency Act violations
identified in DoD IG Report No. D-2005-096 and identifies another 69 potential
Antideficiency Act violations disclosed this year. Other reports will address whether the
policies, procedures, and internal controls of each activity selected for review were in
place, compliant, and properly administered.

Results. DoD has taken many actions to improve controls over assisted DoD purchases
through non-DoD contracts. However, DoD organizations did not initiate and complete
preliminary reviews of potential Antideficiency Act violations in a timely manner or fully

*
    We reported to the Senate Armed Services Committee that 11 of the 12 client supports centers were not
    compliant with DoD procurement requirements but were making significant progress towards becoming
    compliant. The European client support center was compliant.
recoup expired funds. Consequently, DoD organizations have not finalized the
38 potential Antideficiency Act violations valued at $301 million that were identified last
year and potentially incurred an additional 69 Antideficiency Act violations valued at
$130.6 million while using non-DoD contracts in FY 2005. The Under Secretary of
Defense (Comptroller)/Chief Financial Officer needs to establish financial policies for
DoD to use non-DoD revolving funds, such as the GSA Information Technology Fund
and franchise funds, and to issue clarifying guidance on the bona fide needs rule,
awarding of contracts after the fiscal year end with previous year funds, and partial
funding of purchases using non-DoD agencies. The Office of the General Counsel needs
to independently review 12 potential Antideficiency Act violations reported in DoD IG
Report No. D-2005-096 and determine whether formal investigations by DoD
organizations are necessary even though the organizations did not consider them
necessary. Lastly, the Under Secretary of Defense (Comptroller)/Chief Financial Officer
needs to direct the DoD organizations to initiate preliminary reviews to determine
whether the use of Government funds for the 69 purchases listed in Appendix D was
improper and resulted in Antideficiency Act violations or other funding violations in
accordance with DoD Regulation 7000.14-R, “Financial Management Regulation.” We
identified a material internal control weakness in policy on Non-Economy Act Orders.
See the Finding section of the report for the detailed recommendations.

Management Comments and Audit Response. The Office of the Under Secretary of
Defense (Comptroller)/Chief Financial Officer concurred with our recommendation to
independently assess whether formal investigations should occur for the potential
Antideficiency Act violations reported in DoD IG Report No. D-2005-096. The Office of
the Under Secretary of Defense (Comptroller)/Chief Financial Officer issued policy on
Non-Economy Act Orders. In addition, the Deputy Chief Financial Officer concurred
with our recommendation and will work with the Defense Finance and Accounting
Services to identify reimbursements for purchases to non-DoD agencies. Finally, the
Deputy Chief Financial Officer directed the DoD Components to initiate preliminary
reviews of the 69 potential Antideficiency Act violations. No additional comments are
required. A discussion of management comments is in the Finding section of the report
and the complete text is in the Management Comments section.




                                             ii
Table of Contents

Executive Summary                                                          i

Background                                                                1

Objectives                                                                6

Review of Internal Controls                                               6


Finding
     DoD Potential Antideficiency Act Violations                           7

Appendixes
     A. Scope and Methodology                                             27
     B. Prior Coverage                                                    29
     C. DoD IG Report No. D-2005-096 Potential Antideficiency
          Act Violations                                                  32
     D. Potential Antideficiency Act Violations That Occurred Primarily
          in FY 2005                                                      44
     E. Report Distribution                                               68


Management Comments
     Office of Under Secretary of Defense (Comptroller)/Chief Financial
        Officer                                                           71
Background
This audit was performed in accordance with section 802, Public Law 108-375,
“Ronald W. Reagan National Defense Authorization Act for Fiscal Year 2005,”
October 28, 2004. Section 802 states:

       (a)     INITIAL  INSPECTOR                    GENERAL           REVIEW          AND
       DETERMINIATION.—

       (1) Not later than March 15, 2005, the Inspector General of the Department of
       Defense and the Inspector General of the General Services Administration shall
       jointly—

               (A) review—

               (i) the policies, procedures, and internal controls of each GSA Client
               Support Center; and

               (ii) the administration of those policies, procedures, and internal
               controls; and

               (B) for each such Center, determine in writing whether—

               (i) the Center is compliant with defense procurement requirements;

               (ii)   the Center is not compliant with defense procurement
               requirements, but the Center made significant progress during 2004
               toward becoming compliant with defense procurement requirements; or

               (iii) neither of the conclusions stated in clauses (i) and (ii) is correct.

               (2) If the Inspectors General determine under paragraph (1) that the
               conclusion stated in clause (ii) or (iii) of subparagraph (B) of such
               paragraph is correct in the case of a GSA Client Support Center, those
               Inspectors General shall, not later than March 15, 2006, jointly—

               (A) conduct a second review regarding that GSA Client Support
               Center as described in paragraph (1)(A); and

               (B) determine in writing whether that GSA Client Support Center is or
               is not compliant with defense procurement requirements.

In addition, section 811, Public Law 109-163, “National Defense Authorization Act for
Fiscal Year 2006,” January 6, 2006, states:




                                                     1
           (a) INSPECTOR GENERAL REVIEWS AND DETERMINIATIONS.—

           (1) IN GENERAL.—For each covered non-defense agency, the Inspector General
           of the Department of Defense and the Inspector General of such non-defense
           agency shall, not later than March 15, 2006, jointly—

                   (A) review—

                   (i) the procurement policies, procedures, and internal controls of such
                   non-defense agency that are applicable to the procurement of property
                   and services on behalf of the Department by such non-defense agency;
                   and

                   (ii) the administration of those policies, procedures, and internal
                   controls; and

                   (B) determine in writing whether—

                   (i) such non-defense agency is compliant with defense procurement
                   requirements;

                   (ii) such non-defense agency is not compliant with defense
                   procurement requirements, but has a program or initiative to
                   significantly improve compliance with defense procurement
                   requirements; or

                   (iii) neither of the conclusions stated in clauses (i) and (ii) is correct in
                   the case of such non-defense agency.”

           The law requires audits of the Department of the Interior, the National
           Aeronautics and Space Administration (NASA), and the Department of the
           Treasury.

           The DoD Office of Inspector General (OIG) issued audit report, “DoD Purchases
           Made Through the General Services Administration [GSA],” on July 29, 2005
           (DoD IG Report No. D-2005-096). That report concluded that most of the client
           support centers (CSC)1 were not compliant with DoD procurement requirements
           but were making significant progress towards becoming compliant. The report
           disclosed significant financial issues and identified 38 potential violations of the
           Antideficiency Act (ADA).

           To comply with Public Law 108-375, the DoD OIG will issue two reports in
           addition to DoD IG Report No. D-2005-096. This report addresses actions taken
           on the 38 potential ADA violations identified in DoD IG Report No. D-2005-096
           and identifies another 69 potential ADA violations disclosed in FY 2005. The 69
           potential ADA violations were identified during audits at the four activities being
           reviewed this year: GSA, the Department of the Interior, NASA, and the
           Department of the Treasury. The second report, DoD IG Report No. D-2007-007,
1
    We reported to the Senate Armed Service Committee that 11 of the 12 CSCs were not compliant with
    DoD procurement requirements but were making progress towards becoming compliant and that 1 CSC
    was compliant. The European CSC was compliant.



                                                        2
            “FY 2005 DoD Purchases Made Through the General Services Administration,”
            October 30, 2006, addressed whether the policies, procedures, and internal
            controls of each GSA CSC were in place and administered so that the CSCs were
            compliant with Defense procurement requirements for purchases awarded by
            GSA primarily in FY 2005.

            To comply with Public Law 109-163, the DoD OIG will issue an additional three
            reports on DoD purchases made through the Department of the Interior, NASA,
            and the Department of the Treasury.

            At GSA, the Department of the Interior, NASA, and the Department of the
            Treasury, we reviewed the procedures for funding purchases made by DoD. This
            required following the funds from the time the funds left DoD until the funds
            were paid to the contractors by the non-DoD activity and ultimately reimbursed to
            the activities’ working capital fund.

            Funding DoD Purchases. DoD uses DoD Form 448, Military Interdepartmental
            Purchase Request (MIPR), to transfer funds within the Services and to other
            Federal agencies. A MIPR is a request for materiel, supplies, or services and can
            be sent as either a direct citation of funds or through reimbursement of funds by
            DoD. Most of the MIPRs reviewed during our audit were reimbursable MIPRs to
            procure services and supplies. MIPRs are usually used to transfer funds to other
            Federal agencies under the authority of the Economy Act and in compliance with
            the DoD Financial Management Regulation (FMR), volume 11A, chapter 3,
            “Economy Act Orders.” The Economy Act applies when more specific statutory
            authority does not exist. Each Economy Act order must be supported by a
            Determination and Finding and funds must be deobligated before the end of the
            period of availability of the appropriation if the ordering agency has not provided
            the goods or services or entered into a contract to provide the goods or services.
            However, MIPRs sending funds to the GSA Information Technology (IT)2 Fund,
            the Department of the Treasury Franchise Fund, and the Department of the
            Interior Franchise Fund are reimbursable orders and non-Economy Act Orders.
            MIPRs sent to the Department of the Interior National Business Center,
            Southwest Acquisition Branch are Economy Act Orders. Purchases made through
            NASA contracts were completed by DoD contracting officials and fund
            management was retained in DoD.

            GSA. The GSA Federal Technology Service (FTS) assists Federal agencies in
            identifying, acquiring, and managing technical solutions. GSA FTS provides the
            Federal IT community a comprehensive range of IT products and assisted services




2
    Information Technology is equipment or an interconnected system or subsystem of equipment that is used
     in the automatic acquisition, storage, manipulation, management, movement, control, display, switching,
     interchange, transmission, or reception of data or information. Information Technology includes
     computers, ancillary equipment, software, firmware, and similar procedures, services (including support
     services), and related resources.



                                                       3
            on a fully cost-reimbursable basis. Twelve CSCs3 perform the acquisition duties.
            To fund the acquisition of IT equipment and services, GSA FTS uses its IT Fund.
            This revolving fund is reimbursed by funds from Federal agencies for whom the
            equipment and services are being acquired. DoD sends funds to GSA using DoD
            Form 448, MIPR; these funds are non-Economy Act orders and are accepted as
            reimbursable.

                     IT Fund. Section 322, title 40, United States Code (40 U.S.C. 322)
            establishes the GSA IT Fund. The IT Fund allows GSA to efficiently provide
            IT resources to Federal agencies. As a revolving fund, the IT Fund provides a
            financial mechanism for GSA to pay vendors for IT and telecommunication costs,
            bill the Federal agency that received the IT goods and services, and then receive
            reimbursement for the costs billed. Once a requesting agency enters into a
            binding reimbursable agreement with FTS, the requesting agency may record an
            obligation in its accounting system. The agreement must be specific, definite, and
            certain at the time it is made, and must then reflect a bona fide need of the DoD.
            Acceptance of DoD funds into the IT Fund does not permit DoD to place new
            orders for goods or services after the DoD appropriation has expired.

                    In FY 2004, DoD sent approximately 24,000 MIPRs to GSA, representing
            more than 85 percent of the business contracted by the CSCs. The GSA FTS
            received approximately $8.5 billion for the Network Service Program, the CSCs,
            and other miscellaneous programs to purchase IT equipment and services. In the
            fourth quarter of FY 2004, DoD sent more than $1.0 billion. For DoD IG Report
            No. D-2005-096, we reviewed 75 purchases funded by 144 MIPRs valued at
            about $406 million, which occurred primarily in the fourth quarter of FY 2004.
            In FY 2005, DoD sent approximately 20,505 MIPRs to GSA valued at
            approximately $3.0 billion. In FY 2005, we reviewed 56 purchases funded by
            223 MIPRs valued at approximately $179 million.

            The Department of the Interior. The Department of the Interior uses
            GovWorks, a Federal Acquisition Center, to provide contracting support for
            Federal agencies. GovWorks delivers value to Federal (both civilian and
            military) agencies throughout the acquisition process by using best practices,
            responsive customer service, and regulation compliance. The organization is a
            Federal service-for-fee acquisition center operating under the authority of the
            U.S. Department of the Interior Franchise Fund. This fund operates on a
            reimbursable basis, much like the GSA IT Fund. The Department of the Interior
            typically charges four percent of the contract award amount for work performed.
            In addition, the Department of the Interior has another contracting center, the
            National Business Center, Southwest Acquisition Branch, at Fort Huachuca,
            Arizona. The National Business Center, Southwest Acquisition Branch, is a
            working capital fund and operates under the Economy Act. The National
            Business Center, Southwest Acquisition Branch also typically charges between
            .5 and 2.5 percent of the contract award amount for work performed.

3
    The 12 CSCs include the following numbered regions: (1) New England, (2) Northeast and Caribbean,
     (3) Mid-Atlantic, (4) Southeast Sunbelt, (5) Great Lakes, (6) Heartland, (7) Greater Southwest, (8) Rocky
     Mountain, (9) Pacific Rim, (10) Northwest/Arctic, (11) the National Capital Region, and (12) the
     European Region. For large, complex Federal IT projects, GSA has the Federal Systems Integration and
     Management Center (FEDSIM).



                                                        4
                   Franchise Fund. Section 403 of the Government Management Reform
           Act of 1994 authorizes the establishment of the Department of the Interior
           GovWorks Franchise Fund. The National Business Center, Southwest
           Acquisition Branch at Fort Huachuca, Arizona, was authorized by
           43 U.S.C. 1467. GovWorks and the Southwest Acquisition Branch contracting
           officials awarded approximately $2.5 billion in contracts, with DoD representing
           about 64 percent of the work. We reviewed 49 task orders, valued at
           approximately $277.1 million, awarded by GovWorks and the Southwest
           Acquisition Branch.

           The Department of the Treasury. The Department of the Treasury FedSource
           is an entrepreneurial Governmental enterprise established to provide common
           administrative support services to other components within Treasury and outside
           agencies on a competitive and fully cost-reimbursable basis. The franchise fund
           operates in a businesslike manner by creating and maintaining a business
           relationship and environment that promotes customer participation and
           satisfaction through delivery of quality performance, teamwork, and continuous
           improvement, both in service delivery and economic benefit. FedSource has
           seven centers4 in large cities throughout the U.S. to perform the acquisition
           duties. FedSource does not have a set fee; however, five or six percent is usually
           charged, though the fee can be as low as two percent, depending on the service.

                   Franchise Fund. The Government Management Reform Act of 1994
           authorized the establishment of the Department of the Treasury Franchise Fund
           Pilot Program. FedSource has its own independent authority under Public
           Law 104-208, the Treasury Department Appropriation Act of 1997, as amended
           by the Treasury Department Appropriation Act of 2001, Public Laws 106-554 and
           108-7. In FY 2005, DoD sent 9,199 MIPRs to the Department of the Treasury,
           valued at approximately $406 million. We reviewed 61 task orders valued at
           about $37.8 million. These task orders were awarded by the Baltimore, Los
           Angeles, and St. Louis centers.

           NASA. NASA established the Scientific and Engineering Workstation
           Procurement contracts for Federal agencies to use. The NASA Government-Wide
           Acquisition Contract provides the latest in IT products for all Federal agencies.
           DoD contracting officers were responsible for all DoD awards made by using the
           NASA Scientific and Engineering Workstation Procurement contracts. First,
           DoD organizations identified the requirement and provided the clearly defined
           requirement and funding to the DoD contracting office. Next, DoD contracting
           officials then chose the contractor for award, typically based on low price, and
           used the NASA Scientific and Engineering Workstation Procurement Web site to
           award the contract. NASA charges a fee for orders over $2,500. The fee,
           0.65 percent of the total dollar amount of the items procured, cannot exceed
           $10,000. As part of the fee charged, NASA reviews orders over $100,000 to
           determine whether the requested products are within the scope of the vendor’s
           contract. NASA then approves the order. Finally, NASA forwards the order to
           the contractor, who is responsible for supplying the products. NASA is not
4
    The seven centers include Baltimore, Chicago, Cincinnati, Los Angeles, San Antonio, Seattle, and
     St. Louis.



                                                       5
     involved in the funding of the orders and did not receive or track funds, other than
     the fee. DoD is solely responsible for contractor payment. The Information
     Technology Management Reform Act of 1996 (Clinger-Cohen Act) designation
     of NASA as an executive agent by the Office of Management and Budget allows
     all agencies of the Federal Government to use the Scientific and Engineering
     Workstation Procurement contracts. In FY 2005, DoD contracting offices
     awarded 6,569 orders, valued at $343.2 million, against NASA contracts. We
     reviewed 111 orders, valued at approximately $85.9 million.


Objectives
     Our overall audit objective was to review financial procedures for DoD use of
     non-DoD contracts. Specifically, we determined whether actions were taken in a
     timely manner to resolve potential ADA violations identified during our audit last
     year. We also examined whether financial procedures for purchases at GSA, the
     Department of the Interior, NASA, and the Department of the Treasury were
     followed. See Appendix A for a discussion of the scope and methodology. See
     Appendix B for prior coverage related to the objectives.

Review of Internal Controls
     We identified material internal control weaknesses as defined by DoD Instruction
     5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4,
     2006. The Under Secretary of Defense (Comptroller)/Chief Financial Officer
     (USD[C]/CFO) did not issue clear financial policy on Non-Economy Act Orders.
     The sites we visited encountered problems as identified in the report finding,
     “DoD Potential Antideficiency Act Violations,” while implementing and
     executing existing policy. DoD organizations must incorporate the regulations
     and statutes associated with appropriation laws. Financial and accounting
     officials should have the necessary training and knowledge to properly execute
     the orders. Implementing the recommendations in this report should improve
     financial procedures for using non-DoD contracts and should correct the material
     funding weaknesses identified in this report. A copy of this report will be
     provided to the senior official responsible for internal controls in the Office of the
     Under Secretary of Defense (Comptroller)/Chief Financial Officer
     (OUSD[C]/CFO).




                                           6
            DoD Potential Antideficiency Act
            Violations
            DoD has taken actions to improve controls over assisted DoD purchases
            made through non-DoD contracts. However, DoD organizations did not
            initiate and complete preliminary reviews of potential ADA violations in a
            timely manner or recoup expired funds. Contributing to this was the fact
            that the USD(C)/CFO was slow to issue authoritative financial guidance
            on the bona fide needs rule and the availability of funds for contracts
            crossing fiscal years. In addition, DoD organizations were reluctant to
            review and recoup funds that could not be used for other purchases.
            Consequently, DoD organizations have not finalized the 38 potential ADA
            violations valued at $301 million that were identified in DoD IG Report
            No. D-2005-096. Also, DoD organizations potentially incurred an
            additional 69 ADA violations valued at $130.6 million, using non-DoD
            contracts.


Criteria
     The Antideficiency Act. The ADA is codified in a number of sections of title 31
     of the United States Code (such as 31 U.S.C. 1341(a), 1342, 1349-1351, 1511(a),
     and 1512-1519). The purpose of these statutory provisions, known collectively as
     the ADA, is enforcing the constitutional powers of the purse residing in Congress
     with respect to the purpose, time, and amount of expenditures made by the
     Federal Government. Violations of other laws may create violations of the ADA
     provisions (for example, the “bona fide needs rule,” 31 U.S.C. 1502[a]).

     The potential ADA violations in DoD IG Report No. D-2005-096 specifically
     refer to 31 U.S.C. 1341(a)(1), which states an officer or employee of the United
     States Government may not (A) make or authorize an expenditure or obligation
     exceeding an amount available in an appropriation or fund for the expenditure or
     obligation or (B) involve the Government in a contract or obligation for the
     payment of money before an appropriation is made unless authorized by law.

     Section 1350, title 31, United States Code states that an officer or employee of the
     U.S. Government knowingly and willfully violating 31 U.S.C. 1341(a) or 1342
     shall be fined up to $5,000, imprisoned for up to 2 years, or both. Section 1351,
     title 31, United States Code states that if an officer or employee of an executive
     agency violates 31 U.S.C. 1341(a) or 1342, the head of the agency shall report
     immediately to the President and Congress all relevant facts and a statement of
     actions taken.

     Bona Fide Needs Rule. To use appropriated funds, there must be a bona fide
     need for the requirement in the year the appropriations are available for
     obligation. Section 1502(a), title 31, United States Code states,




                                          7
                    The balance of an appropriation or fund limited for obligation to a
                    definite period is available only for payment of expenses properly
                    incurred during the period of availability or to complete contracts
                    properly made within that period of availability and obligated
                    consistent with section 1501 of this title. However, the appropriation
                    or fund is not available for expenditure for a period beyond the period
                    otherwise authorized by law.

           Section 2410a, title 10, United States Code states that the Secretary of Defense
           may enter into a contract for procurement of severable services for a period that
           begins in one fiscal year and ends in the next fiscal year. This section applies to
           annual appropriations, such as operations and maintenance (O&M) funds. To
           meet bona fide needs rule requirements and 10 U.S.C. 2410a considerations, the
           OUSD(C)/CFO has specified that funds for severable services5 must be obligated
           in the year of the appropriation funding the services, and the contract period of
           the services cannot exceed 1 year. Also, ordered goods must be received in the
           year of the appropriation unless there is a known production or delivery lead-time
           or unforeseen delays in delivery.

           Government Accountability Office Red Book. The Government Accountability
           Office (GAO) Red Book, GAO-04-261SP, “Principles of Federal Appropriations
           Law, Third Edition, Volume I,” January 2004, states
                    An order or contract for the replacement of stock is viewed as meeting
                    a bona fide need of the year in which the contract is made as long as it
                    is intended to replace stock used in that year, even though the
                    replacement items will not be used until the following year.

           DoD Financial Management Regulation. The DoD FMR provides all DoD
           organizations with the policy, regulation, and procedures within the area of
           responsibility of the USD(C)/CFO. The regulation consists of 15 volumes. It
           governs financial management by establishing and enforcing requirements,
           principles, standards, systems, procedures, and practices necessary to comply
           with financial management statutory and regulatory requirements applicable to
           DoD. It directs financial management requirements, systems, and functions for
           all appropriated, working capital, revolving, and trust fund activities.

           DoD FMR, volume 14, chapter 3, “Preliminary Reviews of Potential Violations,”
           April 2003, states that the purpose of a preliminary review is to gather basic facts
           and determine whether a violation may have occurred. When a DoD Component
           has some evidence that a violation may have occurred, preliminary checks of the
           applicable business transaction and accounting records shall be made to determine
           whether a potential violation exists. This should be done in a timely manner
           (usually within 90 days). A report on the preliminary review shall be provided
           for approval to the cognizant Assistant Secretary of a Military Department for
           Financial Management, unified combatant commands, or Defense agency. The
           report shall be coordinated with legal counsel. If a potential violation occurred,


5
    Most service contracts are severable. A non-severable contract would have a primary deliverable such as
    a prototype system or a completed report at the end of the performance period.



                                                       8
then a formal investigation shall be initiated within 15 business days of the
approval of the report of preliminary reviews.

DoD FMR, volume 14, chapter 4, “Beginning an Investigation,” October 2002,
states that “whenever a preliminary review determines a potential violation has
occurred, a formal investigation is required.” Individuals with no vested interest
in the outcome, and who are capable of conducting a complete, impartial,
unbiased investigation, will conduct the investigation. A commander of a major
command, a superior to a commander of a major command, or equivalent will
appoint an investigation officer. DoD FMR, volume 14, chapter 5, “Conducting
Investigations,” October 2002, states investigations of potential ADA violations
will be completed within 9 months. The total process for investigating, including
preparation of transmittal letters to the President, the Director of the Office of
Management and Budget, and the leaders of both Houses of Congress will take no
more than 1 year. See the figure for the timeline for reviews of ADA violations.


                                 IG issues draft report indicating potential
                            Antideficiency Act violations at a DoD Component



                                          Within 10 days
                                USD(C)/CFO requests preliminary reviews



                                             Within 30 days
                             DoD Component conducts preliminary review,
                            with coordination from Component Legal Counsel


                                           Within 90 days
                                DoD Component reports to USD(C)/CFO
                                   on presence of potential violation



              No Violation                                            Potential Violation


                                                                       Within 15 days
         Report results coordinated
                                                         DoD Component appoints Investigating Officer (IO)
            with USD(C)/CFO
                                                                and formal investigation begins



                                                                                                   DoD Component and IO provide
      No further action upon acceptance
                                                                                                 monthly status reports to USD(C)/CFO



                                                                                              Within 9 months, and no later than a year
                                                                                               DoD Component and IO issue final report
                                                                                                          to USD(C)/CFO




Timeline for reviewing potential ADA violations

The DoD Deputy Chief Financial Officer issued a July 6, 2005, memorandum,
“Administering Discipline in Antideficiency Act (ADA) Violation Cases” (DoD
Deputy Chief Financial Officer July 6, 2005, Memorandum) to improve the
disciplinary process and meet the intent of the ADA. The Military Departments
and the Defense agencies will acknowledge that ADA violations are a misuse of
DoD funds, even though the misuse may not have been knowing or willful and
the Military Department Offices of Financial Management and Comptroller and
the Defense agencies will verify the independence of disciplinary officers.



                                                                    9
DoD Policy Memorandums. The Acting Under Secretary of Defense for
Acquisition, Technology, and Logistics issued an October 29, 2004,
memorandum, “Proper Use of Non-DoD Contracts” (the DoD October 29, 2004,
Memorandum) directing the Military Departments and Defense agencies to
establish procedures for reviewing and approving the use of non-DoD contract
vehicles by January 1, 2005. The program manager or requirements official has
primary responsibility to ensure compliance with the policy. The procedures
must include:

       •   evaluating whether using a non-DoD contract is in the best interest of
           DoD;

       •   determining whether the tasks are within the scope of the contract to
           be used;

       •   reviewing funding to ensure that it is used in accordance with
           appropriation limitations; and

       •   providing unique terms, conditions, and requirements to the assisting
           agency for incorporation into the order or contract to comply with all
           applicable DoD-unique requirements.

Within a short period of time, both the Navy and the Air Force issued
memorandums, “Proper Use of Non-DoD Contracts.” Both memorandums
implement guidance and policy for the Acting Under Secretary for Acquisition,
Technology, and Logistics. The Air Force and Navy memorandums were dated
December 6, and December 20, 2004, respectively. The Army issued a
memorandum, “Proper Use of Non-Department of Defense (Non-DoD)
Contracts,” on July 12, 2005, to implement the guidance.

The DoD Deputy Chief Financial Officer issued a March 24, 2005, memorandum,
“Proper Use of Interagency Agreements for Non-Department of Defense
Contracts Under Authorities Other Than the Economy Act” (the DoD March 24,
2005, Memorandum). This memorandum, in conjunction with the DoD
October 29, 2004, Memorandum, establishes DoD policy on assisted acquisitions
such as those completed by GSA FTS and ensures that interagency agreements
(under other than the Economy Act) for non-DoD contracts are used in
accordance with existing laws and DoD policy. To save Government resources,
the DoD March 24, 2005, Memorandum directs the following actions.

       •   For services ordered through an interagency agreement, the DoD
           organization must review funds provided to the servicing agency that
           have expired and recoup those expired funds, unless the request for
           services was made during the period of availability of the funds; the
           order was specific, definite, and certain, with specificity similar to
           contractual orders; and severable services were ordered with a period
           of performance that does not exceed 1 year.

       •   For goods ordered through an interagency agreement, DoD
           organizations must recoup expired funds unless the request for goods
           was made during the period of availability of the funds and was for


                                    10
                goods that, solely because of delivery, production lead-time, or
                unforeseen delays, could not be delivered within the period of
                availability of those funds.

     The USD(C)/CFO issued a March 27, 2006, memorandum, “Proper Use of
     Interagency Agreements with Non-Department of Defense Entities Under
     Authorities Other Than the Economy Act” (the DoD March 27, 2006,
     Memorandum). This memorandum states that under no circumstances should any
     existing order for severable services using O&M funds extend beyond 1 year
     from the date the funds were accepted by the servicing agency. This guidance
     requires DoD organizations to state on funding documents that cite annual
     appropriations, “These funds are available for services for a period not to exceed
     one year from the date of obligation and acceptance of this order. All unobligated
     funds shall be returned to the ordering activity no later than one year after the
     acceptance of the order or upon completion of the order, which ever is earlier.”


Resolution of Prior Potential ADA Violations
     DoD organizations did not initiate and complete preliminary reviews of potential
     ADA violations in a timely manner or recoup expired funds. DoD IG Report
     No. D-2005-096 identified 38 potential ADA violations. Appendix C lists the
     38 potential ADA violations included in DoD IG Report No. D-2005-096. DoD
     organizations funded the 38 purchases with $301 million. DoD FMR defines
     specific guidance for preliminary reviews of potential ADA violations. However,
     DoD organizations did not follow the guidance. The Army, Air Force,
     U.S. Southern Command, and the Defense Manpower Data Center (DMDC) did
     not initiate and complete preliminary reviews of potential ADA violations in a
     timely manner or recoup expired funds.

     Guidance. On May 31, 2005, the OUSD(C)/CFO issued memorandums to the
     Deputy Under Secretary of Defense for Personnel and Readiness (Program
     Integration); the Assistant Secretary of the Army (Financial Management and
     Comptroller); the Assistant Secretary of the Navy (Financial Management and
     Comptroller); the Assistant Secretary of the Air Force (Financial Management
     and Comptroller); and the Commander, U.S. Southern Command to initiate,
     within the next 30 days, preliminary reviews of the circumstances surrounding the
     potential ADA violations identified. On October 25, 2005, the OUSD(C)/CFO
     issued a request for status of ongoing preliminary investigations into potential
     ADA violations. The OUSD(C)/CFO requested that status be provided no later
     than December 1, 2005.

     Status. According to the DoD FMR, volume 14, chapter 3, preliminary reviews
     should be completed within a reasonable amount of time, usually 90 days. See
     the figure for the timelines for reviews of ADA violations. The OUSD(C)/CFO
     requested the commands start the reviews within 30 days. Therefore, most
     preliminary reviews should have been completed by September 30, 2005.
     However, of the 38 potential ADA violations identified, only the Navy completed
     8 preliminary reviews within a timely manner. The Army completed 9 of


                                         11
12 preliminary reviews in April 2006 and did not complete preliminary reviews
for 3 purchases. For those three purchases, the Army decided to replace the funds
without preliminary reviews. The Air Force completed 11 preliminary ADA
reviews in April 2006 and did not complete a preliminary review for 1 purchase.
The U.S. Southern Command completed two preliminary reviews in
November 2005 and DMDC completed four reviews in November 2005. See
Table 1 for a summary of the reviews.


               Table 1. Summary of Preliminary Reviews for 38 Purchases

                           DoD Activities Determinations        DoD OIG Determinations
            Number of      Formal     Correct-    No ADA      Preliminary   Require
             Potential     Invest-      ive       Violation     Review    OUSD(C)/CFO
              ADA          igation    Actions                 Completed     Review
            Violations    Required     Taken                   in Timely
                                                                Manner
Army             12           3           5           4                        3
Navy              8                       1           7            8                 5
Air Force        12           8           1           3                              2
Southern
Command           2                                   2                              1
DMDC              4                       3           1                              1

Total            38          11           10         17            8                 12



       Army. The Army had 12 potential ADA violations to review. Of the
12 violations, 3 occurred at the Army Materiel Command; 5 occurred at the Army
Accession Command; 3 occurred at Army Reserve Command; and 1 occurred at
the Program Manager, Defense Communications and Army Transmission
Systems.

        Initially, the Office of the Assistant Secretary of the Army for Financial
Management and Comptroller was waiting for additional OUSD(C)/CFO
guidance on the bona fide need issue before beginning preliminary reviews.
However, following the USD(C)/CFO October 25, 2005, Memorandum
requesting status of potential ADA violations, the Army began the preliminary
reviews. The Office of the Assistant Secretary of the Army for Financial
Management and Comptroller directed the Army Materiel Command, the Army
Training and Doctrine Command, and the Army Reserve to conduct preliminary
ADA violation reviews on November 7, 2005. Of the 12 potential ADA
violations identified, the Army recommended three formal investigations.
Preliminary reviews showed that the Army replaced FY 2004 funding for
two purchases and without preliminary reviews, decided to replace funding for
three additional purchases. The commands reported that no ADA violations


                                     12
occurred on three purchases reviewed. Finally, for one purchase, the Army
partially took corrective action and partially determined that no ADA violation
occurred.

                Army Materiel Command. The Army Materiel Command
initiated a formal investigation on the AMC [Army Materiel Command]
Headquarters Relocation Project. The Army Materiel Command did not complete
preliminary reviews for the Relocation/IT Support purchase, Relocation/Cell
Phones purchase, or the Management Consulting Services purchase. The Army
Materiel Command is replacing funding on the three purchases and determined
that the violations would not be reportable.

                Army Accessions Command. The Army Training and Doctrine
Command, March 23, 2006, preliminary review on its subordinate command, the
Army Accessions Command, determined that no ADA violations occurred for
two purchases, took corrective action for two purchases, and partially took
corrective action and partially determined that no ADA violation occurred on the
fulfilled purchase.

                The Army Accession Command preliminary review determined
that the Partners for Youth Success Program-Marketing purchase was a severable
service contract with a 12-month period of performance. As such, the purchase
was covered under 10 U.S.C. 2410a. The contract period of performance was
May 1, 2004, through April 30, 2005. The Army Accession Command sent a
MIPR to GSA on September 14, 2004, to add additional FY 2004 O&M funds for
the period of performance occurring from January 1, 2005, through April 30,
2005, which is an FY 2005 need. This does not comply with the intent of
10 U.S.C. 2410a, which states funds made available for a fiscal year may be
obligated for the total amount of a contract entered into. The partial funds were
added to the order in FY 2004, but the period of performance for the funds
occurred in FY 2005. FY 2005 O&M funds should be used for that time period.
Therefore, we recommend that the OUSD(C)/CFO decide whether a formal
investigation should be conducted to determine if there was a bona fide need in
FY 2004 for the Partners for Youth Success Program-Marketing purchase.

                The Army Accessions Command Preliminary review states that the
circumstances for the Partners for Youth Success IT Purchase are nearly identical
to the Partners for Youth Success Program-Marketing. The contract period of
performance is May 1, 2004, through April 30, 2005. Additional FY 2004 O&M
funds were sent to GSA in September 2004. However the MIPR provided the
additional funding for the period of performance occurring from January 1, 2005,
through April 30, 2005, FY 2005, and therefore, needed FY 2005 O&M funds.
We recommend that the OUSD(C)/CFO decide whether a formal investigation
should be conducted to determine whether there was a bona fide need in FY 2004
for the Partners for Youth Success IT purchase.

               Army Reserve Command. The Army Reserve, March 2, 2006,
preliminary review recommended that two formal investigations be conducted
and determined that no ADA violation occurred for one purchase. The Army
Reserve Command initiated formal investigations on the Individual Training


                                    13
Requirements System purchase and the Army-Wide Training Tracking
System/Army Training and Information Management System Development
purchase. The Army Reserve Command determined no ADA violation occurred
on the Steam Cleaners purchase. However, the Army Reserve Command used
GSA to purchase a commercially available product for the Steam Cleaners
purchase. The equipment was not delivered in the year the funds were available
for use and there was no evidence that a long lead-time was necessary to obtain
this commercial product. Accordingly, we recommend that the OUSD(C)/CFO
decide whether a formal investigation should be conducted to determine if there
was a bona fide need in FY 2004 for the Steam Cleaners purchase.

        Navy. The Navy had eight potential ADA violations. Of the eight
violations, four occurred at the Naval Education and Training Command; one at
the Navy Reserve Forces; two at the Space and Naval Warfare Systems
Command; and one at the Space and Naval Warfare Systems Center, New
Orleans. The Navy did not recommend or complete any formal ADA
investigations. Preliminary reviews show that the Navy replaced FY 2004
funding for one purchase and that the commands reported that no ADA violations
occurred on the other seven purchases reviewed.

              Naval Education and Training Command. The Naval
Education and Training Command, August 8, 2005, preliminary review
determined that no ADA violations occurred. For the Navy EXCEL [Excellence
through Commitment to Education and Learning] purchase, the Naval Education
and Training Command preliminary review stated that they were unable to
determine whether research, development, training, and evaluation (RDT&E)
funds or O&M funds were the correct appropriation to fund the task. Therefore,
we recommend that the OUSD(C)/CFO decide whether a formal investigation
should be conducted to determine if the incorrect appropriation was used.

               For the Chief Information Officer Integration purchase, the
preliminary review stated, “The order for contracting was not accomplished until
late September due to review/approval processes … and unforeseen delays …
Funding was available and obligated in the financial system by the end of
September. Therefore, a bona fide need did exist.” However, no specific
interagency agreement obligating the funds existed and GSA did not award the
contract in FY 2004. Therefore, we recommend that the OUSD(C)/CFO decide
whether a formal investigation should be conducted to determine if there was a
bona fide need in FY 2004 for the Chief Information Officer Integration purchase.

                 Navy Reserve Forces. The Navy Reserve Forces, June 30, 2005,
preliminary review determined that no ADA violation occurred. For the Defense
Message System purchase, the preliminary review states the computers were
purchased to provide connectivity to an existing external system and none of the
computers were connected directly to one another. The computers did not
constitute a system. However, in an interview on November 18, 2004, Navy
Reserve Forces personnel stated that purchasing of computers and training was
the first part of the Defense Message System upgrade. The Navy Reserve Forces
personnel considered the computers as part of the upgrade to the Defense
Message System. Therefore, we recommend that the OUSD(C)/CFO decide



                                   14
whether a formal investigation should occur to determine if correct funds were
used for this purchase.

                Space and Naval Warfare Systems Command. The Space and
Naval Warfare Systems Command, August 17, 2005, preliminary review
determined that no ADA violations occurred. For the Video Teleconference
Upgrades purchase, the preliminary review stated “SPAWAR [Space and Naval
Warfare Systems Command] identified the security threat requiring an upgrade in
the middle of FY 2004. The requirement was included in a FY 2004 unfunded
list, providing further evidence of an established FY 2004 need. Delivery was
expected within 14-60 days, with partial deliveries expected earlier. Therefore, a
bona fide need did exist in FY 04.” The MIPR, using O&M funds, was sent
September 29, 2004. However, the delivery of the severable services portion of
this contract in FY 2005 violated the bona fide needs rule. Therefore, we
recommend that the OUSD(C)/CFO decide whether a formal investigation should
be conducted.

                Space and Naval Warfare Systems Center, New Orleans. The
Space and Naval Warfare Systems Center, New Orleans, August 17, 2005,
preliminary review determined that no ADA violations occurred. For the Work
Force Learning Project, the preliminary review states that the Program Executive
Office Information Technology issued a MIPR with RDT&E funds to the Space
and Naval Warfare Systems Center, New Orleans. The correct source
appropriation was used to fund the Work Force Learning project. Because an
RDT&E fund is a 2-year appropriation, the money was still available for
obligation at the date of the contract award. However, the MIPR sent to GSA by
the Space and Naval Warfare Systems Center, New Orleans cited O&M funds.
Therefore, we recommend that the OUSD(C)/CFO decide whether a formal
investigation should be conducted.

        Air Force. The Air Force had 12 potential ADA violations. Of the
12 violations, 2 occurred at the Air Combat Command; 3 occurred at the
Electronic Systems Center Force Protection Command and Control System
Program Office (ESC); 2 occurred at the Air Force Medical Support Agency; and
5 occurred at the Air National Guard. Of the 12 potential ADA violations
identified, the Air Force recommended 8 formal ADA investigations and
determined that that no ADA violations occurred on 3 purchases reviewed. No
preliminary review was completed for one purchase. No Air Force preliminary
reviews had the required approval and coordinated with the Secretary of the
Air Force General Counsel as of May 1, 2006.

               Air Combat Command. The Air Combat Command,
November 22, 2005, preliminary review recommended one formal investigation
on the Battle Management Project purchase and determined that no ADA
violation occurred on one purchase.

              ESC. The ESC, December 30, 2005, preliminary review
recommended two formal investigations, one for the Security System Assessment
purchase and one for the Joint Conflicts and Tactical Simulation System



                                    15
Assessment purchase, and determined that no ADA violation occurred on one
purchase.

                On November 9, 2004, the DoD Inspector General (IG) sent the
Program Director, ESC a memorandum requesting ESC stop proceeding with
contracts related to the $171 million sent to GSA for the “smart gates” until the
funding and contracting problems were corrected. The DoD IG stated that if the
acquisition continued as planned, an ADA violation may occur. However, ESC
disregarded the DoD IG memorandum. The Air Force has not recouped
approximately $130 million in FY 2003 O&M funds in accordance with the DoD
March 24, 2005, Memorandum. In addition, work appears to be continuing on the
vehicle barriers purchase, a part of the smart gate project.

               Although reported last year as a potential ADA violation, ESC did
not conduct a preliminary review on the smart gate purchase. The Department of
the Air Force General Counsel for Fiscal and Administrative Law rendered an
opinion on February 23, 2005, that determined no ADA violation occurred. The
Air Force General Counsel opinion appears to contradict OUSD(C)/CFO
guidance in the DoD March 24, 2005, Memorandum. Once the Deputy Chief
Financial Officer issued the March 24, 2005, Memorandum, the Air Force should
have followed the guidance issued and recouped the unobligated funds for the
smart gate purchase. To assist future purchases, the General Counsel of the
Office of the Secretary of Defense must issue a legal opinion regarding DoD
funds sent into revolving funds, such as the GSA IT fund. The OUSD(C)/CFO
and the Military Departments must comply with the legal opinion. Regardless,
we believe the Air Force, using USD(C)/CFO guidance, needs to conduct a
preliminary ADA review of the vehicle barriers purchase and recoup the FY 2003
O&M funds used for that purchase.

               Air Force Medical Support Agency. The Air Force Medical
Support Agency, November 29, 2005, preliminary review recommended one
formal investigation on the Web Management Design purchase and determined
that no ADA violation occurred on one purchase. The Air Force Medical Supply
Agency preliminary review stated that GSA was procuring equipment for the End
User Devices purchase. GSA did not award the contract for the equipment until
July 2005, which is part of FY 2005. The FY 2004 O&M funds sent to GSA
expired on September 30, 2004. We recommend that the OUSD(C)/CFO decide
whether a formal investigation should be conducted to determine if there was a
bona fide need in FY 2004 for the End User Devices purchase.

               National Guard Bureau. The National Guard Bureau,
November 30, 2005, preliminary review recommended two formal investigations
on the Sensor Evaluation purchase and the Web Site Development purchase. In
addition, two purchases, the Active Directory Support purchase and Combat
Banners purchase, will have formal investigations. No ADA violation occurred
on one purchase. The National Guard Bureau took corrective action on one
purchase and deobligated the funds on the Weapons of Mass Destruction First
Response Equipment Buy purchase.

       U.S. Southern Command. The U.S. Southern Command had
two potential ADA violations. The U.S. Southern Command, November 10,


                                   16
     2005, preliminary review determined that no ADA violations occurred. For the
     Joint Detainee Information Management System (JDIMS) purchase, the
     U.S. Southern Command preliminary review stated that JDIMS is not a system,
     but data storage and retrieval capability that can be accessed by authorized
     personnel from any Secret Internet Protocol Router Network terminal in DoD.
     The number of Secret Internet Protocol Router Network terminals needed to be
     increased to provide authorized personnel access to input on detainee activities.
     However, the JDIMS Information Paper provided by the U.S. Southern Command
     refers to JDIMS as a system. Therefore, we recommend that the OUSD(C)/CFO
     decide whether a formal investigation should occur to determine if correct funds
     were used for this purchase.

             Defense Manpower Data Center. DMDC had four potential ADA
     violations. On November 28, 2005, the Office of the Under Secretary of Defense
     for Personnel and Readiness sent a memorandum to the USD(C)/CFO updating
     the status of the DMDC potential ADA violations. DMDC took corrective
     actions on three purchases. DMDC deobligated funding on the Universally
     Accepted Credentials purchase, Defense Biometric Identification System
     purchase, and the CAC Vulnerability purchase.

            DMDC determined that no ADA violation occurred on the Beneficiary
     Services and Ancillary Support purchase. The funds were for a bona fide need of
     FY 2003 and placed on existing contract to fund the contractor’s continued
     performance during the initial 1-year contract period that began on February 1,
     2003. GSA placed the funds on contract on October 17, 2003. Because the
     FY 2003 O&M funds were placed on contract in FY 2004, there appears to be a
     bona fide need issue. Therefore, we recommend that the OUSD(C)/CFO decide
     whether a formal investigation should occur to determine if correct funds were
     used for this purchase.

     Actions Taken. DoD organizations performed preliminary reviews for the
     38 potential ADA violations identified in DoD IG Report No. D-2005-096. Of
     the 38 preliminary reviews, 21 purchases have formal actions being taken by
     DoD organizations by initiating formal investigations or performing corrective
     actions. To correct purchases, the DoD organizations replaced the expired annual
     funds used for each purchase with annual funds that were current at the time of
     the purchase. For 17 purchases, DoD organizations determined that no ADA
     violation occurred. However, the OUSD(C)/CFO should determine whether
     formal investigations should be completed for 12 of the 17 purchases where
     DoD organizations determined no ADA violations occurred.


Additional Potential ADA Violations
     The USD(C)/CFO was slow to issue comprehensive, clarifying financial guidance
     on the bona fide needs rule and the availability of funds that cross fiscal years.
     The lack of formal investigations into potential ADA violations left many
     financial issues unresolved. Without clear guidance from the USD(C)/CFO, DoD
     organizations were reluctant to review and recoup expired funds. In the absence


                                         17
of clear, definitive funding guidance, DoD organizations continued “business as
usual” and may have committed an additional 69 potential ADA violations that
were funded with approximately $130.6 million.

Guidance for Contracts for Periods Crossing Fiscal Years and the Bona Fide
Needs Rule. Section 2410a, title10, United States Code permits the period of
performance of a severable service contract to begin in 1 fiscal year and end in
the next fiscal year, as long as the period of performance does not exceed
12 months. However, the USD(C)/CFO did not issue guidance until March 27,
2006, on severable services that cross fiscal years and use an annual
appropriation, such as O&M funds. The guidance states that O&M funds are
available for 1 year after acceptance by the non-DoD agency to fund severable
services. The USD(C)/CFO has not issued clarifying guidance on the awarding of
contracts after fiscal year end and the partial funding of contracts when assisted
acquisitions are being made by non-DoD agencies.

        Confusing Guidance. The USD(C)/CFO has not issued clarifying
guidance on the bona fide needs rule for purchases being made by non-DoD
agencies. The DoD March 24, 2005, Memorandum states that, for services,
expired funds should be deobligated and returned from non-DoD agencies unless
the order was made during the period of availability; the order was specific,
definite, and certain, with specificity similar to contracts; and for severable
services, the period of performance does not exceed 1 year. As stated previously,
the DoD March 27, 2006, Memorandum says that O&M funds are available for
1 year after acceptance from non-DoD agencies. Although the memorandums
may appear to contradict each other, both provide accurate guidance. However,
DoD organizations continue to use expired funds for purchases through non-DoD
agencies. For example, on December 12, 2002, the Naval Sea Logistics Center,
Mechanicsburg, Pennsylvania, sent funds to GovWorks to purchase 40 desert
camouflage Lightweight Assault Vest body armor systems. On April 19, 2005, a
GovWorks contracting officer awarded contract 42912 to purchase the body
armor systems for Naval Sea Systems Command. The Navy FY 2003 O&M
funds expired on September 30, 2003. The funds were sent to GovWorks well
within the period of availability; however, the funds were not placed on contract
for 28 months, and had been expired for 18 months. The Naval Sea Systems
Command should conduct a preliminary review to determine whether an ADA
violation occurred. The USD(C)/CFO should issue clarifying guidance on the
bona fide needs rule. DoD needs to have a single source with clear guidance on
funding purchases through non-DoD agencies. In addition, DoD program
managers and non-DoD contracting officers need to be clear on the precise date
an annual appropriation is no longer available for use and when a DoD
organization should recoup funds that cannot be used within the guidance.

       Partial Funding of Contracts. Though no clear guidance exists, DoD
organizations partially fund purchases made by non-DoD agencies. Partial
funding can be an indication of a lack of acquisition planning or of DoD
organizations trying to spend expiring funds at non-DoD agencies. For example,
GSA initially awarded a contract for DMDC on January 14, 2003, to purchase
Beneficiary Services and Ancillary Support. At the time of the award, $1 million
was placed on the contract with a period of performance from February 1, 2003,
through January 31, 2004. DMDC sent MIPR XK3H5A33F273MP with an


                                    18
additional $6.0 million to fund the purchase to GSA on September 26, 2003,
using FY 2003 O&M funds. Obviously, DMDC was attempting to use expiring
funds for services that would not occur during the period of availability of the
appropriation. GSA did not issue a modification and place the funds on contract
until October 17, 2003. As discussed previously, DMDC concluded that no
ADA violation occurred. However, the OUSD(C)/CFO should decide whether a
formal investigation should occur. In addition, the USD(C)/CFO should issue
clarifying guidance on partial funding of contracts and contracts actions that
occur after the fiscal year end using non-DoD agencies.

Review of Purchase Payments. The Defense Finance and Accounting Services
provide responsive, professional finance and accounting services for DoD. Part
of these services includes accounting for DoD appropriations. The most common
DoD appropriations include RDT&E, O&M, Procurement, Defense Working
Capital Fund, and Military Construction. An appropriation expires when it is no
longer available for new obligations; however, most appropriations are available
for another 5 years for adjustment to, or payment of, existing obligations. At the
end of that 5-year period, the appropriation is considered closed. However, DoD
organizations used expired funds to reimburse non-DoD agencies for purchased
goods and services, and could potentially attempt to use closed funds. When the
Defense Finance and Accounting Services reimburses non-Defense agencies for
purchases made on behalf of DoD, it should review the appropriations used for
reimbursement to non-DoD agencies to ensure expired and closed appropriations
are not used inappropriately. If the appropriation or year of appropriation is
improper, the Defense Finance and Accounting Service should reject the payment
and require the proper funds.

Potential ADA Violations. DoD organizations may have an additional
69 potential ADA violations that occurred primarily in FY 2005. In addition to
GSA, DoD organizations use other agencies to contract for the purchase of goods
and services. The Department of the Interior, GovWorks and the Southwest
Acquisition Branch, and the Department of the Treasury, FedSource have
revolving funds similar to the GSA IT Fund. DoD organizations also use
Government-wide acquisition contracts, such as the Scientific Engineering and
Workstation Procurement contract at NASA. Reviews of DoD organizations’ use
of GSA; the Department of the Interior, GovWorks and the Southwest
Acquisition Branch; NASA; and the Department of the Treasury, FedSource
disclosed an additional 69 potential ADA violations that occurred primarily in
FY 2005. See Table 2 for the potential ADA violations by non-DoD agencies
(some purchases both extended the availability of funds and used the wrong
appropriation). If the USD(C)/CFO had issued clear guidance and DoD
organizations had completed the preliminary reviews of potential ADA violations
in a timely manner, DoD organizations would now have examples that could be
used to avoid improper use of funds and ADA violations. Appendix D lists the
69 purchases reviewed this year that we believe improperly used Government
funds. OUSD(C)/CFO should direct Components to initiate preliminary reviews
for the purchases in Appendix D to determine whether ADA violations occurred.
See Table 3 for the total number of types of funding issues of potential ADA
violations by DoD activity.



                                    19
              Table 2. Potential ADA Violations by Non-DoD Agencies*

                                         Bona Fide Need           Wrong Appropriation
     GSA                                       11                         1
     Department of the Interior                21                         2
     NASA                                      12                         6
     Department of the Treasury                16                         9

     Total                                       60                         18
     *
      Some purchases have both bona fide need and wrong appropriation.



                   Table 3. Potential ADA Violations by Activity1

                                        Bona Fide Need          Wrong Appropriation
 OSD                                           1
 Army                                         12                           5
 Navy                                         18                           1
 Air Force                                     8                           2
 Combatant Commands2                          15                           8
 Defense Agencies3                             6                           2

 Total                                          60                        18
 1
   Some purchases have both bona fide need and wrong appropriation.
 2
   Combatant Commands include the U.S. Central Command, U.S. Special Operations
   Command, Joint Information Operations Center, and the Joint Personnel Recovery
 Agency.
 3
   Defense agencies include the Defense Information Systems Agency, Washington
   Headquarters Services, Defense Security Service, DoD OIG, and the Counterintelligence
   Field Activity.


Bona Fide Need. For 60 purchases of the 69 identified as potential ADA
violations, DoD funding authorities violated the bona fide needs rule. DoD
organizations used annual O&M appropriations to fund purchases of severable
services that met a bona fide need of the following fiscal year instead of the year
the funds were available. Also, DoD organizations purchased goods that were
received after the availability of the funds could not be justified because of
delivery time, production lead-time, unforeseen delays, or stock replacement.

        GSA Purchases. DoD organizations may have potential ADA violations
for 11 purchases made through GSA relating to the bona fide needs rule. For
example, the Joint Information and Operations Center sent $875,000 to GSA on
September 25, 2003; sent approximately $1.0 million to GSA on September 8,
2004; and sent $6,148 to GSA on September 14, 2004, for a total of
approximately $1.9 million in FY 2004 O&M funds. The Joint Information
Operations Center also sent approximately $1.0 million to GSA on October 13,
2005 using FY 2006 O&M funds. The Joint Information Operations Center used


                                           20
the funds to purchase severable services supporting the command’s network. The
funds were used to cover a base contract period from September 15, 2003,
through September 30, 2004, for $849,000; option year 1, from October 1, 2004,
through September 30, 2005, for $891,000; and option year 2, from October 1,
2005, through September 30, 2006, for $891,000. Since no FY 2005 funds were
sent to support option year 1, in FY 2005, it appears the services received in
FY 2005 were funded with FY 2004 O&M funds. The Joint Information and
Operations Center should conduct a preliminary review to determine whether an
ADA violation occurred.

       In addition, the Defense Security Service sent $310,000 to GSA on
September 17, 2004, using FY 2004 O&M funds. The Defense Security Service
purchased the testing of automated certification and accreditation tools, program
management support, and independent verification and validation of automated
tools. On August 25, 2005, GSA awarded the contract for the severable services,
using FY 2004 O&M funds. FY 2004 O&M funds expired on September 30,
2004. The Defense Security Service should conduct a preliminary review to
determine whether an ADA violation occurred.

        Department of the Interior Purchases. DoD organizations may have
potential ADA violations for 21 purchases made through the Department of the
Interior relating to the bona fide needs rule. For example, the Office of the
Administrative Assistant to the Secretary of the Army sent $1.8 million, using
FY 2004 O&M funds, to the Department of the Interior, GovWorks to purchase
computer servers for the Pentagon Telecommunications Service Center. The
funds expired on September 30, 2004. A GovWorks contracting officer awarded
contract action 40966 for $521,679 on November 30, 2004. The computer servers
were commercial items and there was no evidence that a long lead-time was
required to purchase these items, or that the items were needed to replenish the
inventory, or that there was an unforeseen delay in purchasing these items. The
Office of the Administrative Assistant to the Secretary of the Army should
conduct a preliminary review to determine whether an ADA violation occurred.

       In addition, on May 5, 2005, a GovWorks contracting officer issued
modification 0002 under contract action 41801 for $920,970, to add funding to a
purchase of services related to the U.S. Air Force Horned Owl Program for the
U.S. Army Program Management Office Airborne Reconnaissance Low. The
Department of the Interior contracting officials used a portion of the funds from
two existing DoD MIPRs to fund modification 0002. One MIPR, for $120,000,
was issued on January 10, 2004, using Army FY 2004 O&M funds, which
expired on September 30, 2004. The U.S. Army Intelligence and Security
Command, the command that issued the MIPR, should conduct a preliminary
review to determine whether an ADA violation occurred.

        Department of the Treasury Purchases. DoD organizations may have
potential ADA violations for 16 purchases made through the Department of the
Treasury relating to the bona fide needs rule. For example, the Air Force Deputy
Chief of Staff, Manpower and Personnel sent $500,000, using FY 2004 O&M
funds to the Department of the Treasury, FedSource to pay national affiliation
fees for Boys and Girls Club of America for all participating Air Force youth


                                    21
centers for 2005 and for the annual national conference. The funds were used to
prepay FY 2005 fees for the annual conference that occurred in 2005. There was
no interagency agreement made during the period of availability of the funds
other than the MIPR that funded the purchase, which was not specific, definite,
and certain with specificity similar to that found in contract orders. The Air Force
Deputy Chief of Staff, Manpower and Personnel should conduct a preliminary
review to determine whether an ADA violation occurred.

       In addition, the Naval Base Ventura County Public Works, now the Naval
Engineering Facilities Command, Southwest, purchased services through
FedSource to repair underground vaults in the parking apron. The Naval Base
Ventura County Public Works issued a MIPR for $177,000, on September 28,
2004, using FY 2004 O&M funds. The task order was not awarded until
November 18, 2004. The Naval Engineering Facilities Command, Southwest
should conduct a preliminary review to determine whether an ADA violation
occurred.

       NASA Purchases. DoD organizations may have 12 potential
ADA violations relating to the bona fide needs rule for purchases made using the
NASA Scientific and Engineering Workstation Procurement contracts. For
example, a DoD contracting officer used the NASA Scientific and Engineering
Workstation Procurement contracts to purchase licenses, maintenance, and
technical support services valued at $500,000 using FY 2005 O&M funds for the
Counterintelligence Field Activity (CIFA). The contracting officer awarded the
order on September 21, 2005, and did not schedule a delivery date. The goods
were delivered on January 6, 2006, more than 3 months after the end of FY 2005.
The receipt of goods after the DoD appropriation expired could not be justified
because of production lead-time or unforeseen delays. This order also included
severable services that commenced December 13, 2005. CIFA should conduct a
preliminary review to determine whether an ADA violation occurred.

        Another DoD contracting officer used the NASA Scientific and
Engineering Workstation Procurement contracts to purchase various computer
equipment. The U.S. Central Command primarily purchased the Gateway E6300
personal computer. The value of the order was $758,442, and used FY 2005
Air Force O&M funds, which expired on September 30, 2005. The order was
awarded on September 19, 2005, and scheduled delivery was October 19, 2005.
The equipment was not delivered until November 3, 2005. The receipt of goods
after the DoD appropriation expired could not be justified by production lead-
time or unforeseen delays. The Commander, U.S. Central Command should
conduct a preliminary review to determine whether an ADA violation occurred.

Wrong Appropriation. For 18 of the 69 purchases identified as potential
ADA violations, DoD organizations used the wrong appropriation to fund the
requirement. For example, the Directorate of Support Services at Fort McCoy
sent seven MIPRs, valued at $987,935, using FY 2003 Army Reserve O&M funds
to the Department of the Treasury, FedSource to construct a canopy and vehicle
inspection building. The Directorate of Support Services at Fort McCoy decided
to build a new access road approximately 10 miles from the main gate because
railroad tracks crossed before the main gate. The Director stated that the new
gate was temporary. However, FedSource was used to “Construct Main Gate


                                    22
    Inspection Building” and “Construct Main Gate Canopy.” The statement of work
    says to “Construct a steel structured Canopy with a 18 foot clearance to a steel
    roof to be located at the access control point at the main gate.” Regardless,
    whether the new gate was temporary or not, the wrong appropriation was used.

    At the time the canopy was scheduled for construction, 10 U.S.C. 2801(a),
    defined military construction as “… any construction, development, conversion,
    or extension of any kind carried out with respect to a military installation.” DoD
    FMR, volume 2A, chapter 1 defines construction as “the erection, installation, or
    assembly of a new facility; the addition, expansion, extension, alteration,
    conversion, or replacement of an existing facility; the acquisition of a facility or
    the relocation of a facility from one installation to another.” Further, construction
    includes real property equipment installed and made an integral part of such
    facilities, related site preparation, and other land improvements. New buildings
    existed because of this purchase through the Department of the Treasury,
    FedSource. The contract exceeds the limits for using O&M funds for minor
    construction. Therefore, this is a construction project requiring the Directorate of
    Support Services at Fort McCoy to request Military Construction Funds from
    Congress for this purchase.


Conclusion
    Because the OUSD(C)/CFO delayed issuing comprehensive, clear guidance and
    program officials did not complete formal investigations into potential ADA
    violations, DoD organizations continued to inappropriately fund purchases
    through non-DoD agencies. If ADA investigations had been completed in
    accordance with the FMR and the DoD Deputy Chief Financial Officer July 6,
    2005, Memorandum, DoD organizations would now have clear examples of
    correct policy. In addition, DoD organizations may have avoided the 69 new
    potential ADA violations identified this year. Further, DoD organizations did not
    recoup expired funds. We reported in DoD IG Report No. D-2005-096 that GSA
    estimated between $1.0 billion and $2.0 billion of expired or unavailable funds
    remained at GSA. The OUSD(C)/CFO reported that at least $183 million in
    expired funds were returned to the Department of the Treasury. Other amounts
    may have been deobligated and returned to the Department of the Treasury.
    However, those funds were not reported to the OUSD(C)/CFO. As a result, DoD
    funds remain unaccounted for and are otherwise unavailable for use. The fact that
    any expired funds remain at GSA make them potentially available for improper
    use.


Management Comments on the Finding and Audit Response
    U.S. Special Operations Command. Although not required to comment, the
    Comptroller, U.S. Special Operations nonconcurred with four potential
    Antideficiency Act violations. The U.S. Special Operations Command cited
    “GAO’s Principles of Appropriations Law,” 3rd Edition, Volume I, which states


                                         23
that the bona fide needs rule is not violated for materials if the time between the
contracting and delivery is not excessive and the procurement is not for standard
commercial items readily available from other sources. Therefore, the
U.S. Special Operations Command stated that the four orders were not potential
ADA violations.

Audit Response. The U.S. Special Operations Command ordered from the
NASA Scientific and Engineering Workstation Procurement multiple-award
contracts. The 26 NASA Scientific and Engineering Workstation Procurement
contracts are for IT commercial off-the-shelf products and services that are
readily available. Therefore, potential ADA violations preliminary reviews are
necessary.

Joint Information Operations Center. Although not required to provide
comments, the Associate Director of the Joint Information Operations Center
nonconcurred with the report. For the Information Technology and Operations
Support (J2) purchase, the Headquarters, European Command, not the Joint
Information Operations Center, as stated in the draft report, sent MIPR
MIPR4JGSAJ2043 to GSA for contracted support at the Joint Information
Operations Center. For the Network Systems Support and Administration
purchase, the Joint Information Operations Center stated that GSA incorrectly
stated the end of the period of performance at September 30, 2005, instead of
September 21, 2005. The Joint Information Operations Center and GSA
developed a remediation plan to correct the period of performances for the
contract and option years. For the Personal Video Systems and the Joint Multi-
Disciplinary Vulnerability Assessment purchases, the Joint Information
Operations Center stated that GSA awarded the contract late due to unforeseen
delays.

Audit Response. For the Information Technology and Operations Support (J2)
purchase, the report was changed to reflect that the Headquarters, European
Command sent MIPR MIPR4JGSAJ2043 to GSA. For the Network Systems
Support and Administration purchase, the Joint Information Operations Center
comments state that GSA made an administrative mistake and the period of
performance should have ended September 21, 2005. The Joint Information
Operations Center is changing the dates of the base year and option years to
match the years of the funds sent to GSA. Manipulation of the dates may result in
a large administrative effort because invoices have been paid. The year of the
appropriation of funds already expended on contract efforts cannot be changed.
Therefore, a preliminary review needs to be conducted to determine whether
payments made were in violation of the bona fide needs rule. For the Personal
Video Systems and Joint Multi-Disciplinary Vulnerability Assessment purchases,
the Joint Information Operations Center provided no evidence on the unforeseen
delays. Therefore, a preliminary review should occur.




                                     24
Recommendations and Management Comments
    1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer:

           a. Perform an independent assessment and determine whether formal
    investigations should occur for potential Antideficiency Act violations on the
    Partners for Youth Success Information Technology purchase; the Partners
    for Youth Success Program-Marketing purchase; the Steam Cleaners
    purchase; the Navy Excellence Through Commitment to Education and
    Learning purchase; the Chief Information Officer Integration purchase; the
    Defense Message System purchase; the Video Teleconference Upgrades
    purchase; the Work Force Learning Project purchase; the Smart Gate
    purchase; the End User Devices purchase; the Joint Detainee Information
    Management System purchase; and the Beneficiary Services and Ancillary
    Support purchase.

    Management Comments. The Deputy Chief Financial Officer, responding for
    the Under Secretary of Defense (Comptroller)/Chief Financial Officer, concurred
    and will work with the Office of General Counsel to determine whether formal
    investigations should occur for the potential Antideficiency Act violations. The
    expected completion date is February 2007.

           b. Work with the General Counsel of the Office of the Secretary of
    Defense to establish a legal opinion and policy regarding the use of funds and
    periods of availability of funds that are sent to other agencies that operate
    revolving funds, such as the General Services Administration Information
    Technology Fund and the Franchise Funds.

    Management Comments. The Deputy Chief Financial Officer concurred and
    issued policy on October 16, 2006, “Non-Economy Act Orders.”

           c. Issue clarifying guidance that is specific and definite on the bona
    fide needs rule, awarding contracts after the fiscal year ends with previous
    year funding, and partial funding of purchases through non-DoD agencies.

    Management Comments. The Deputy Chief Financial Officer concurred and
    issued policy on October 16, 2006, “Non-Economy Act Orders.”

           d. Require the Defense Finance and Accounting Services to review
    and identify reimbursements for purchases to non-DoD agencies that cite
    funds that are either expired or closed and no longer available for use.

    Management Comments. The Deputy Chief Financial Officer concurred and
    will work with the Defense Finance and Accounting Services in facilitating the
    review. The estimated completion date is February 2007.

          e. Direct the DoD Components to initiate preliminary reviews to
    determine whether the improper use of Government funds for the


                                       25
69 purchases listed in Appendix D resulted in Antideficiency Act violations
or other funding violations in accordance with DoD 7000.14-R, “Financial
Management Regulation.” Also, monitor the results of the preliminary
reviews to ensure they are being properly initiated.

Management Comments. The Deputy Chief Financial Officer concurred and
requested DoD Components to initiate preliminary reviews for the 69 purchases.
The action was completed in October 2006.




                                   26
Appendix A. Scope and Methodology
   We performed this audit in accordance with Public Law 108-375, the “Ronald W.
   Reagan National Defense Authorization Act for Fiscal Year 2005.” The audit is a
   followup to determine the results of recommendations made last year in DoD IG
   Report No. D-2005-096, “DoD Purchases Made Through the General Services
   Administration,” July 29, 2005. We reviewed those actions taken last year as a
   direct result of DoD IG Report No. D-2005-096, including actions taken by the
   OUSD(C)/CFO and DoD organizations that had reported potential ADA
   violations. In addition, we visited DoD organizations and determined whether
   additional ADA violations occurred.

   We consulted with the General Counsels of the Office of the Secretary of Defense
   and the DoD IG on the interpretation and intent of the United States Code
   regarding the Antideficiency Act and bona fide needs rule. We reviewed DoD
   FMR and DoD guidance on ADA violations and bona fide needs rule. We also
   participated in numerous meetings with management personnel to discuss the
   proper use of funds.

   We obtained and reviewed copies of the OUSD(C)/CFO memorandums
   requesting that DoD organizations conduct preliminary reviews of potential
   ADA violations. We evaluated the preliminary reviews of the 38 potential
   ADA violations identified in DoD IG Report No. D-2005-096 to determine
   whether the reviews were conducted in a timely manner and came to reasonable
   conclusions given the information available. We evaluated nine Army
   preliminary reviews from the Army Materiel Command, Army Accession
   Command, and the Army Reserve Command. We evaluated eight Navy
   preliminary reviews from the Naval Education and Training Command; Navy
   Reserve Command; Space and Naval Warfare Systems Command; and the Space
   and Naval Warfare Systems Center, New Orleans. We evaluated 11 Air Force
   preliminary reviews from the Air Combat Command, Air Force Electronic
   Systems Center, Air Force Medical Support Agency, and the National Guard
   Bureau. We evaluated two U.S. Southern Command preliminary reviews. We
   evaluated four DMDC preliminary reviews. We determined whether DoD
   organizations completed the preliminary reviews in a timely manner, in
   accordance with the DoD FMR.

   The DoD IG conducted separate audits in coordination with GSA, the Department
   of the Interior, NASA, and the Department of the Treasury to evaluate DoD
   purchases through non-DoD contracts. Four additional reports will be issued, one
   on each non-DoD agency.

   GSA. For DoD IG Report No. D-2005-096, we reviewed 75 purchases funded by
   144 MIPRs valued at about $406 million, which occurred primarily in the fourth
   quarter of FY 2004. In FY 2005, DoD sent approximately 20,505 MIPRs to GSA,
   valued at approximately $3.0 billion. In FY 2005, we reviewed 56 purchases
   funded by 223 MIPRs valued at about $179 million. We visited the Army
   Intelligence Center, Fort Huachuca; the Fleet Numerical Meteorology and


                                      27
Oceanography Center; the Air Force Accounting and Finance Office; the Defense
Security Service; Central Command, Air Force; and the Joint Information
Operations Center.

Department of the Interior. We reviewed 49 task orders funded by about
$277.1 million. We visited the Department of the Interior, GovWorks, Herndon,
Virginia; and the Department of the Interior, National Business Center, Southwest
Branch, Fort Huachuca. Auditors at the Department of the Interior OIG reviewed
the potential ADA violations at the DoD OIG.

NASA. In FY 2005, DoD contracting offices awarded 6,569 orders, valued at
$343.2 million, against NASA contracts. We reviewed 111 orders, valued at
approximately $85.9 million. We visited the Space and Naval Warfare Systems
Center at Charleston and San Diego; the Electronic Systems Center at Hanscom
Air Force Base; the Defense Information Technology Contracting Offices at Scott
Air Force Base and the National Capital Region; and the Air Force 6th
Contracting Squadron, MacDill Air Force Base.

Department of the Treasury. In FY 2005, DoD sent 9,199 MIPRs to the
Department of the Treasury, valued at $406 million. We reviewed 61 task orders
valued at about $37 million. We visited the Office of the Under Secretary of
Defense for Personnel and Readiness; Fort McCoy; the Army Human Resources
Command; Walter Reed Army Medical Center; the Naval Base Ventura County;
the Naval Engineering and Facilities Command; the Air Force Deputy Chief of
Staff, Manpower and Personnel; the Air Force Joint Personnel Recovery Agency;
the Air Force 452nd Air Mobility Wing; and the Washington Headquarters
Service.

We performed this audit from September 2005 through June 2006 in accordance
with generally accepted government auditing standards.

Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit.

Government Accountability Office High-Risk Area. GAO has identified
several high-risk areas in DoD. This report provides coverage of the
Management of Interagency Contracting high-risk area.




                                   28
Appendix B. Prior Coverage
    During the last 5 years, GAO, the DoD IG, Army, Air Force, and GSA have
    issued 25 reports discussing interagency procurements and ADA violations.
    Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed at
    http://www.hqda.army.mil. Unrestricted Air Force reports can be accessed at
    http://www.afaa.hq.af.mil. Unrestricted GSA reports can be accessed at http://
    www.gsa.gov.


GAO
    GAO Report No. GAO-06-996, “Interagency Contracting: Improved Guidance,
    Planning, and Oversight Would Enable the Department of Homeland Security to
    Address Risks,” September 2006

    GAO Report No. GAO-05-456, “Interagency Contracting: Franchise Funds
    Provide Convenience, but Value to DOD is Not Demonstrated,” July 2005

    GAO Report No. GAO-05-201, “Interagency Contracting: Problems with DOD’s
    and Interior’s Orders to Support Military Operations,” April 2005

    GAO Report No. GAO-05-274, “Contract Management: Opportunities to
    Improve Surveillance on Department of Defense Service Contracts,” March 2005

    GAO Report No. GAO-05-207, “High-Risk Series: An Update,” January 2005

    GAO Report No. GAO-03-1069, “Budget Issues: Franchise Fund Pilot Review,”
    August 2003

    GAO Report No. GAO-02-734, “Contract Management: Interagency Contract
    Program Fees Need More Oversight,” July 2002


DoD IG
    DoDIG Report No. D-2007-032, “FY 2005 DoD Purchases Made Through the
    Department of Treasury,” December 8, 2006

    DoDIG Report No. D-2007-023, “FY 2005 DoD Purchases Made Through the
    National Aeronautics and Space Administration,” November 13, 2006

    DoDIG Report No. D-2007-007, “FY 2005 DoD Purchases Made Through the
    General Services Administration,” October 30, 2006


                                       29
   DoD IG Report No. D-2006-029, “Report of Potential Antideficiency Act
   Violations Identified During the Audit of the Acquisition of the Pacific Mobile
   Emergency Radio System,” November 23, 2005

   DoD IG Report No. D-2005-096, “DoD Purchases Made Through the General
   Services Administration,” July 29, 2005

   DoD IG Report No. D-2005-003, “DoD Antideficiency Act Reporting and
   Disciplinary Process,” October 14, 2004

   DoD IG Report No. D-2004-084, “Antideficiency Act Investigation of the
   Research, Development, Test and Evaluation, Defense-Wide Appropriation
   Account 97 FY 1989/1990 0400,” May 28, 2004


Army
   Army Report No. A-2004-0244-FFB, “Information Technology Agency Contract
   Management,” May 25, 2004


GSA IG
   GSA Report, “Compendium of Audits of Federal Technology Service Client
   Support Center Controls,” September 29, 2006

   GSA Report, “Compendium of Audits of Federal Technology Service Client
   Support Center Controls,” June 14, 2005

   GSA Report, “Compendium of Audits of the Federal Technology Service
   Regional Client Support Centers,” December 14, 2004
   GSA Report No. A040097/T/7/Z05011, “Audit of Federal Technology Service’s
   Client Support Center, Greater Southwest Region,” December 10, 2004

   GSA Report No. A030205/T/9/Z05009, “Audit of Federal Technology Service’s
   Client Support Center, Pacific Rim Region,” December 9, 2004

   GSA Report No. A040191/T/6/Z05007, “Audit of Federal Technology Service’s
   Control and Testing of Those Controls, Heartland Region,” December 9, 2004

   GSA Report No. A040102/T/W/Z05004, “Audit of Federal Technology Service’s
   Client Support Center, National Capital Region,” December 9, 2004

   GSA Report No. A020144/T/5/Z04002, “Audit of Federal Technology Service’s
   Client Support Centers,” January 8, 2004

   GSA Report No. A020144/T/5/W03001, “Alert Report on Audit of Federal
   Technology Service’s Client Support Centers,” March 6, 2003


                                       30
Department of the Interior
     DOI IG Report No. W-EV-OSS-0075-2004, “Review of 12 Procurements Placed
     Under General Services Administration Federal Supply Schedules 70 and 871 by
     the National Business Center,” July 16, 2004




                                      31
Appendix C. DoD IG Report No. D-2005-096
            Potential Antideficiency Act
            Violations
    The following list contains the 38 potential ADA violations as they were noted in
    DoD IG Report No. D-2005-096, “DoD Purchases Made Through the General
    Services Administration,” July 29, 2005.

Army Materiel Command
    1. Relocation/IT Support. The Army Materiel Command sent
       MIPR MIPR3M6ADPP02 for approximately $1.9 million and
       MIPR MIPR3M6ADPP02 Amendment 1 for $500,000 to GSA on
       September 30, 2003, for relocation of IT support using O&M Funds. The
       relocation support included seat management equipment and services.
       Although a contract existed, GSA had not amended the contract to reflect the
       MIPR requirements as of November 2004. Use of FY 2003 O&M funds to
       satisfy FY 2005 requirements does not meet the intent of the bona fide need
       rule.

    2. Relocation/Cell Phones. The Army Materiel Command sent
       MIPR MIPR4MG6ISW040 for $420,000 to GSA on September 28, 2004,
       using O&M Funds. The requirement was for cellular phones, pagers and
       blackberries. As of November 2004, GSA had not placed the funds on
       contract to purchase the equipment. The anticipated receipt of goods after the
       DoD appropriation expired could not be justified because of delivery time,
       production lead-time, or unforeseen delays. No bona fide need exists because
       the equipment will not be provided until FY 2005 and the Army Materiel
       Command used FY 2004 O&M Funds, which expired on September 30, 2004.

    3. Management Consulting Services. The Army Materiel Command sent
       MIPR MIPR4LG1SERV21 for $324,000 to GSA on August 11, 2004, using
       FY 2004 O&M funds. GSA accepted the funds on the same day. The
       requirement funded the Army Materiel Command management consulting
       project. GSA obligated the funds against contract number GS-10F-0439P,
       task order 5TPS210R00030F on January 27, 2005, with a period of
       performance of February 1, 2005, to January 31, 2006. The procurement was
       for severable services. No FY 2004 bona fide need existed because the order
       for supplies and services met a FY 2005 requirement that lasted until
       FY 2006.

Army Accession Command
    4. Communications and Electronics Helpdesk. The Army Accession
       Command sent MIPR MIPR04A04000021 amendment 7 for $24,995 of
       FY 2004 O&M funds to GSA on September 30, 2004, to exercise option


                                       32
   year 3 of a task order providing Information Technology Communications and
   Electronic Help Desk support services from October 1, 2004 through
   September 30, 2005. Exercise of an option year is clearly a procurement of
   severable services that are not a FY 2004 requirement. GSA modified the
   contract with an effective date of October 20, 2005. FY 2004 O&M Funds
   expired on September 30, 2004, and the period of service was for FY 2005.
   The procurement was for a continuation of severable services that will be
   received in FY 2005. Therefore, no FY 2004 bona fide need existed for this
   procurement.

5. Cell Phone and Telecommunications Project. The Army Accession
   Command sent MIPR MIPR4K04000137 amendment 1 for $60,000 to GSA
   on September 23, 2004, using FY 2004 O&M Funds. It also sent
   MIPR MIPR4K04000147 amendments 1 and 5 for approximately $5.4 million
   and $1,400 to GSA on September 23 and September 30, respectively, using
   FY 2004 O&M funds. The Army Accession Command procured cell phones
   for all Army Recruiters and selected Headquarters staff to maintain contact
   with the recruiter’ applicants and staff. The task order indicates the period of
   performance was for option year 4 of the contract starting October 1, 2004,
   through September 30, 2005. Exercise of an option year is clearly a
   procurement of severable services that are not a FY 2004 requirement. The
   receipt of goods after the DoD appropriation expired could not be justified
   because of delivery time, production lead-time, or unforeseen delays. In
   addition, the services were severable and met a FY 2005 requirement.
   Therefore, no bona fide need existed in FY 2004.

6. Partners for Youth Success Program-Marketing. The Army Accession
   Command sent MIPR MIPR4G04000102 amendment 2 for $214,127 to GSA
   on September 14, 2004, using FY 2004 O&M Funds. The Army Accession
   Command required Marketing for the Army’s Recruiting Program. The Army
   Accession Command used FY 2004 O&M funds, which expired on
   September 30, 2004. The period of performance occurred from January 1,
   2005, through April 30, 2005. Therefore, no FY 2004 bona fide need existed
   for services that were clearly an FY 2005 requirement.

7. Partners for Youth Success Information Technology. The Army
   Accession Command sent MIPR MIPR4G04000104 amendment 2 for
   approximately $167,000 to GSA on September 14, 2004, using O&M funds.
   FY 2004 O&M funds expire on September 30, 2004. The Army Accession
   Command procured IT support to develop and maintain a web-based
   marketing tool for recruiting. The MIPR period of performance for service is
   January 1, 2005, through April 30, 2005. Therefore, no FY 2004 bona fide
   need existed for services that were clearly a FY 2005 requirement.

8. Joint Recruiting Management System. The Army Accession Command
   sent MIPR MIPR4A04000026 amendment 6 for $300,000 to GSA on
   September 24, 2004, using FY 2004 O&M funds. The Army Accession
   Command exercised option year 3 of a task order to continue services in
   support of the development of a database to maintain the information/leads on
   potential applicants for military service. Exercise of an option year is clearly


                                    33
       a procurement of severable services that are not a requirement of FY 2004.
        The period of performance for services occurred from October 1, 2004,
       through September 30, 2005. The procurement for services was severable and
       met a FY 2005 requirement. Therefore, no bona fide need existed for FY
       2004.

Army Reserve Command
    9. Individual Training Requirements System. The Army Reserve Command
       sent MIPR MIPR04ITRS3092 for $1,700,244 to GSA on July 27, 2004, using
       O&M funds, which expire on September 30, 2004. The Army Reserve
       Command exercised option year 3 to continue support services for the
       Individual Training Requirements System project. There was no bona fide
       need in FY 2004 because option year 2 covered that fiscal year. Therefore,
       the bona fide need did not rise until FY 2005. Exercise of an option year is
       clearly a procurement of severable services that were not a FY 2004
       requirement. GSA obligated the funds against contract number GS-35F-
       4797H, task order 4TEG21023601. The MIPR identified FY 2005 as the
       period funded. No FY 2004 bona fide need existed because the MIPR funded
       a FY 2005 requirement.

    10. Steam Cleaners. The Army Reserve Command sent
        MIPR MIPR04STEAM169, for approximately $49,000 to GSA on
        September 24, 2004, using O&M Funds, to purchase a heavy equipment
        steam cleaner mounted on a flat bed trailer. The acquiring official stated that
        he ordered the equipment through GSA rather than lose the funding. As of
        February 22, 2005, the steam cleaners had not been received but Army
        Reserve Command officials believed the steam cleaners were on contract.
        The receipt of goods after the DoD appropriation expired could not be
        justified because of delivery time, production lead-time, or unforeseen delays.
        Therefore, no bona fide need existed for this requirement.

    11. Army Wide Training Tracking System/Army Training and Information
        Management System Development. The Army Reserve Command sent
        MIPR MIPR04WWODT120 for approximately $662,000 to GSA on
        September 24, 2004, using FY 2004 O&M Funds, to support and maintain an
        internet based management and tracking system to accommodate all Army
        units and soldiers conducting training events. GSA accepted the funds on
        September 25, 2004, but had not awarded a contract as of November 23, 2004.
        The procurement was for severable services described in a statement of work
        dated November 2, 2004. Therefore, no bona fide need existed for this
        procurement in FY 2004.

National Guard Bureau
    12. Sensor Evaluation. The National Guard Bureau sent
        MIPR NMIPR04860345 to GSA for $208,333 on September 23, 2004, using
        FY 2004 O&M funds. GSA accepted the funds on September 27, 2004. GSA
        awarded Order number GST0405DE0025, Contract GS04T02BFD003 on


                                        34
   November 17, 2004. The National Guard Bureau required sensors and a
   procurement plan for equipping the C-130 RORO pallet with operational
   sensors in support of the Counter drug Technology Consortium Project. The
   statement of work identified the project as developmental. The statement of
   work also identified developmental type tasks, that is, systems design,
   prototypes and the work is performed at a Research Institute. RDT&E Funds
   are used to develop major system upgrades, to purchase test articles, and to
   conduct developmental testing and initial operational testing and evaluation
   prior to system acceptance and subsequent production. Based on this
   information, RDT&E funds should have been used instead of O&M funds.
   Therefore, the National Guard Bureau used an incorrect appropriation. In
   addition, GSA awarded the task order on November 17, 2004, in FY 2005.
   The period of performance for the requirement is for 18 months, from
   November 17, 2004, through May 16, 2006. GSA awarded the contract action
   in FY 2005 and the period of performance was in FY 2005 and FY 2006.
   FY 2004 O&M funds cannot be used to fund severable services on this
   contract action for more than 12 months. In addition, the receipt of goods
   after the DoD appropriation expired could not be justified because of delivery
   time, production lead-time, or unforeseen delays. Therefore, there was no
   bona fide need for this purchase in the fiscal year of the appropriation used
   and a potential Antideficiency Act violation has occurred.

13. Web Site Development. The National Guard Bureau sent
    MIPR NMIPR04860338 for $200,000 to GSA on September 17, 2004, using
    FY 2004 O&M funds. GSA accepted the funds on September 28, 2004. GSA
    awarded the contract November 22, 2004. The National Guard Bureau
    required support for development of the Counterdrug internal Web sites. The
    statement of work identifies the work as developmental. It states that “the
    intent of NGB-CD [National Guard Bureau–Counterdrug] that this “NGB-CD
    Internal Web Management System Development” work follow a spiral
    developmental model.” The statement of work also identifies developmental
    type tasks, that is, systems design, prototypes. The work is performed at a
    Research Institute. RDT&E Funds are used to develop major system
    upgrades, to purchase test articles, and to conduct developmental testing and
    initial operational testing and evaluation prior to system acceptance and
    subsequent production. Based on this information, RDT&E funds should
    have been used instead of O&M funds. Therefore, the National Guard Bureau
    used an incorrect appropriation. In addition, GSA awarded the contract
    November 22, 2004, in FY 2005. The period of performance for this GSA
    contract action is from November 22, 2004, through May 21, 2006. FY 2004
    O&M funds cannot be used to fund severable services on this contract more
    than 12 months. Therefore, a potential Antideficiency Act violation has
    occurred.

14. Weapons of Mass Destruction First Response Equipment Buy. The
    National Guard Bureau sent MIPR NMIPR04860337 for $7 million to GSA
    on September 16, 2004, using FY 2004 O&M funds. GSA had not awarded a
    contract as of January 31, 2005. Accordingly, the bona need rule was not met.
    The National Guard Bureau required program management, training
    information systems delivery, equipment logistics support, and procurement


                                   35
       support for the Weapons of Mass Destruction 1st Response Equipment Buy.
       This purchase consists of support services and equipment. The acquisition
       and deployment of a system, the aggregate cost of all components such as
       equipment, integration, engineering support, and software, with a cost of
       $250,000 or more is an investment and should be funded with Other
       Procurement Funds. Based on the statement of work task description, the
       National Guard Bureau should have used Other Procurements Funds instead
       of O&M funds. Therefore, the National Guard Bureau also used an incorrect
       appropriation. Since no contract was awarded, the National Guard Bureau
       should deobligate the funds currently at GSA for this purchase and start over
       with the correct appropriation. Once those actions are complete, there will not
       be a potential Antideficiency Act violation in connection with this purchase.

    15. Active Directory Support. The National Guard Bureau sent Miscellaneous
        Obligation/ Reimbursement Document OGMORD0486046 for $10.1 million
        to GSA on August 20, 2004, using O&M funds. The National Guard Bureau
        required strategic planning, requirements analysis, systems integration,
        facilities management, office automation and networks; software
        management, data management, information systems engineering, training
        maintenance, and tools in support of the Active Director Support Project. The
        acquisition and deployment of a complete system, the aggregate cost of all
        components such as equipment, integration, engineering support, and
        software, with a cost of $250,000 or more is an investment and should be
        funded with Other Procurement Funds. Based on the above description of the
        task, Other Procurement Funds should have been used instead of O&M funds.
        Therefore, the National Guard Bureau used an incorrect appropriation.

    16. Combat Banners. The Project Office for Combat Banners is at the
        Air Combat Command. The Air National Guard sent MIPR NMIPR04860278
        for $327,000 to GSA on August 19, 2004, using FY 2004 O&M Funds. The
        Air National Guard requirement included a wide variety of airborne
        simulation capabilities utilizing Lear 35/36 Type (or similar) aircraft towing
        the TDU-32A/B providing target presentations to train Air Force Fighter
        pilots and weapon systems operators on the employment of the M61 20mm
        gun. GSA obligated funds against contract number GS03T02DSD0011, task
        order GST0304DS2026 on September 13, 2004, for supplies to be delivered in
        December 2005, and task order GST0305DS2237 on February 1, 2005, for
        missions to be accomplished in February and June 2005. The receipt of
        supplies after the DoD appropriation expired could not be justified because of
        delivery time, production lead-time, or unforeseen delays. The procurement
        for services is severable and meets FY 2005 requirements. Therefore, a bona
        fide need does not exist for FY 2004.

Army Program Manager, Defense Communications and Army
  Transmission Systems
    17. AMC Headquarters Relocation Project. The PM/DCATS sent 18 MIPRs
        for approximately $44 million to GSA, using FY 2002, FY 2003, and
        FY 2004 O&M Funds, for the relocation of the Army Material Command
        Headquarters. GSA contractors built 2 modular buildings that did not


                                        36
       previously exist, to lease to PM/DCATS. Military Construction includes the
       work to produce a complete and usable facility. PM/DCATS should have
       requested Military Construction Funds from Congress for the project.
       Therefore, PM/DCATS used the incorrect appropriation.

Naval Education and Training Command
    18. Computer Purchase. The Naval Education and Training Command sent
        MIPR N6804504MPAC202 for $8 million to GSA on August 24, 2004, using
        O&M Funds, which expire on September 30, 2004. The Naval Education and
        Training Command requested GSA procure 5,000 computers. GSA obligated
        the funds against contract number GS-35F-0215J, task order 4TNG17042010
        on September 7, 2004. Because the Naval Education and Training Command
        is upgrading its computers, and the cost is above the threshold of $250,000 for
        use of O&M Funds, Other Procurement Funds should have been used. Other
        Procurement Funds are used for upgrades, including new hardware, with a
        cost of $250,000 or more. Therefore, the Naval Education and Training
        Command used the incorrect appropriation.

    19. Learning Management System Support. The Naval Education and
        Training Command sent MIPR N6804504MPEL265 for approximately
        $3.5 million to GSA on September 28, 2004, using FY 2004 O&M Funds.
        The Naval Education and Training Command used GSA to procure the
        Learning Management System Support Integrated Learning Environment.
        The purpose is to provide those products and services necessary to provide
        functionality in support of the Navy’s Integrated Learning Environment. The
        period of performance is from October 2004 through September 2005,
        fulfilling a FY 2005 requirement. FY 2005 funds should have been used. The
        receipt of goods after the DoD appropriation expired could not be justified
        because of delivery time, production lead-time, or unforeseen delays.
        Therefore, there was no bona fide need in FY 2004 for this procurement.

    20. Chief Information Officer Integration. The Naval Education and Training
        Command sent MIPR N6804504MPFQ446 for approximately $546,000 to
        GSA on September 30, 2004, using FY 2004 O&M Funds. The Naval
        Education and Training Command purchased support study services for the
        Navy Marine Corps Intranet project. As of December 16, 2004, GSA had not
        awarded a contract for this requirement. Accordingly, the bona fide need rule
        was not met.

    21. Navy EXCEL. The Naval Education and Training Command sent
        MIPR N6804504MPX5104 for approximately $2.5 million to GSA on
        July 21, 2004; MIPR N6804504MPX5104 amendment 1 for approximately
        $5.7 million to GSA on September 13, 2004; and MIPR N6804504MPX5104
        amendment 2 for $2.4 million to GSA on September 25, 2004, using
        O&M Funds. The Naval Education and Training Command used GSA to
        procure the Navy Knowledge Online Task Force EXCEL (Excellence through
        Commitment to Education and Learning) to transform training to incorporate
        changes in technologies, systems, and platforms being developed for


                                        37
       tomorrow’s Fleet. GSA obligated the funds against contract number
       GS-35F-4381G on June 9, 2004, and modified the order on July 28, 2004. It
       appears that GSA awarded the task and work started prior to GSA receiving
       funds from DoD. The deliverables in the statement of work include items
       such as "software test plan" and Government Acceptance Testing. Also, the
       initial capabilities task occurs at the very end of the project. RDT&E Funds
       are used to develop major system upgrades, to purchase test articles, and to
       conduct developmental testing and initial operational testing and evaluation
       prior to system acceptance and subsequent production. Therefore, the Naval
       Education and Training Command used the incorrect appropriation.

Naval Reserve Forces
    22. Defense Message System. The Naval Reserve Forces sent
        MIPR N000720MP34275, for approximately $706,000 to GSA on
        September 13, 2004 and MIPR N000720MP34275 amendment 1, for
        $566,500 to GSA on September 29, 2004, using O&M Funds that expired on
        September 30, 2004. The Naval Reserve Forces upgraded the Defense
        Message System servers and messaging. GSA obligated the funds against
        contract number GS-35F-4076D, task order BJB174733T2 for computers on
        September 27, 2004, and contract number GS-35F-4390G, task order
        FJB174739T2 for training on November 1, 2004. The modification of a
        system with a cost of $250,000 or more is an investment and should be funded
        with Other Procurement Funds. Therefore, the Naval Reserve Forces used the
        incorrect appropriation.

Space and Naval Warfare Systems Command
    23. Toner Printer Supplies. The Space and Naval Warfare Systems Command
        sent MIPR N0003904IPFG003 for approximately $212,000 to GSA on
        September 22, 2004, for toner supplies, using FY 2004 O&M Funds. The
        Space and Naval Warfare Systems Command purchased toner for FY 2005,
        using FY 2004 funds. The receipt of goods after the DoD appropriation
        expired could not be justified because of delivery time, production lead-time,
        or unforeseen delays. Therefore, no bona fide need existed.

    24. Video Teleconference Upgrades. The Space and Naval Warfare Systems
        Command sent MIPR N0003904IPFG004 for approximately $416,000 using
        O&M Funds and MIPR N0003904IPFDB97 for $460,000 to GSA on
        September 29, 2004, using Other Procurement Funds, to purchase video
        teleconference upgrades and equipment. GSA obligated the funds against
        contract number GST0905DF0040 in October 2004. The Space and Naval
        Warfare Systems Command obtained upgrades (using MIPR
        N0003904IPFG004) above the O&M funds threshold of $250,000. The
        modification of a system with a cost of $250,000 or more is an investment and
        should be funded with Other Procurement Funds. Therefore, the Space and
        Naval Warfare Systems Command used the incorrect appropriation. The
        FY 2004 O&M Funds expired on September 30, 2004, and GSA did not sign
        the contract for services until October 2004. The procurement for upgrade


                                        38
       services portion of this order was severable and met a FY 2005 requirement.
       Therefore, no FY 2004 bona fide need existed.

Space and Naval Warfare Systems Center New Orleans
    25. Work Force Learning Project. The Space and Naval Warfare Systems
        Center New Orleans sent MIPR N6925004MPGR001 for approximately
        $3.2 million to GSA on September 28, 2004, using O&M Funds. The Space
        and Naval Warfare Systems Center New Orleans used GSA to explore
        distance learning capabilities as an efficient and effective training vehicle for
        the DoD. This project is to further investigate and maximize use of distance
        learning techniques to support the civilian community learning requirements.
        GSA did not award a contract as of November 23, 2004. RDT&E funds are
        used to develop major system upgrades, to purchase test articles, and to
        conduct developmental testing and initial operational testing and evaluation
        prior to system acceptance and subsequent production. The Space and Naval
        Warfare Systems Center New Orleans should have used RDT&E funds
        because the type of work to be performed is research, definition, prototyping,
        and validation of processes, methods and tools related to civilian workforce
        development. Therefore, the Space and Naval Warfare Systems Center
        New Orleans used the incorrect appropriation. In addition, FY 2004
        O&M Funds expired on September 30, 2004. GSA did not award a contract
        as of November 23, 2004. The procurement for services is severable and
        meets a FY 2005 requirement. No FY 2004 bona fide need exists.

Air Combat Command
    26. Battle Management Project. The Air Combat Command sent
        MIPR DD48809N401296 for $1 million to GSA on September 9, 2004, using
        FY 2004 O&M Funds. The Air Combat Command purchased professional
        services for maintenance and repair of ground-base radar equipment and to
        Manage Air Combat Aerospace Operations Planning and Training Programs
        for the Battle Management Operations. GSA obligated the funds against
        contract number GS07T00BGD0021 exercising option year 3 of the services
        contract. The period of performance on the statement of work is October 1,
        2004, through September 30, 2005, which is FY 2005. Option year 2 of the
        contract, covering the same services, ended on September 30, 2004. The
        procurement for services is severable and meets a FY 2005 requirement.
        FY 2005 O&M Funds should be used. Therefore, a bona fide need did not
        exist for FY 2004.

    27. Modernization of Weapon Systems. The Air Combat Command sent
        MIPR DD44809N401215 for approximately $1.1 million to GSA on
        August 19, 2004, using FY 2004 O&M Funds to be obligated against contract
        number GS-00F-0034L, task order T0002AJ0213. The Air Combat
        Command tasks included technical evaluations and requirements development
        planning through automated acquisition and management of relevant data and
        technical assistance to support development of all integrated Air Force


                                         39
        modernization and sustainment planning activities. Other Procurement Funds
        should have been used because of the cost of the upgrade, which includes
        technical assistance, is counted towards the investment threshold of $250,000
        or more. Therefore, the Air Combat Command used the incorrect
        appropriation.

Air Force Electronic Systems Center
     28. Smart Gate. ESC/FD sent MIPR NFDXXX03681387 for approximately
         $159 million to GSA on August 22, 2003; MIPR NFDXXX03681387
         Amendment 1 for approximately $15 million to GSA on September 9, 2003;
         and MIPR NFDXXX03681387 Amendment 2 to pull back approximately
         $3 million from GSA on September 30, 2003, for security upgrades using
         FY 2003 O&M Funds, which expired on September 30, 2003. These
         upgrades included the smart gates, vehicle barriers, explosive detection
         equipment, and thermal imagers. Overall, five contracts awards are planned.
         GSA awarded contracts on April 30, 2004, and December 12, 2003, for
         vehicle barriers and thermal imager equipment, respectively. GSA used the
         General Supply Fund to award the two contracts that were funded for
         approximately $41 million. Additionally, GSA seeks to award three
         additional contracts for handheld and desktops explosive detection equipment
         and smart gates for approximately $130 million. The GSA initial review of
         the 3 proposals has indicated that it too has some concerns. The receipt of
         goods after the DoD appropriation expired could not be justified because of
         delivery time, production lead-time, or unforeseen delays. No bona fide need
         exists because the funds expired on September 30, 2003, and the work would
         not be performed until FY 2005 or later. Military Construction includes the
         cost of all military construction work to produce a complete and usable
         facility or a complete and usable improvement to an existing facility. Because
         the vehicle barriers are construction, ESC/FD should have used Military
         Construction Funds. Therefore, ESC/FD used the incorrect appropriation.

     29. Security System Assessment. ESC/FD sent MIPR NFDXXX03681571 for
         $2.9 million to GSA on September 25, 2003, using O&M funds for
         completion of site visits as the first part of the Security Assessment of
         100 Air Force Bases. GSA awarded the contract in October 2003. The
         procurement for services is severable and met a FY 2004 requirement.
         Therefore, no FY 2003 bona fide need existed for this purchase.

     30. Joint Conflicts and Tactical Simulation System Assessment. ESC/FD sent
         MIPR NFDXXX03681595 for approximately $1.24 million to GSA on
         September 30, 2003, utilizing O&M funds. GSA awarded the contract in
         October 2003. The ESC/FD procured support services to conduct a
         simulation vulnerability study of 100 Air Force Bases worldwide. The
         procurement for services is severable and met a FY 2004 requirement.
         Therefore, no FY 2003 bona fide need existed for the purchase.




                                         40
Air Force Medical Support Agency
    31. End User Devices. The Air Force Medical Support Agency sent
        MIPR NMIPR045204141 for approximately $2.8 million and
        MIPR NMIPR045204112 for approximately $8.2 million to GSA on
        September 14, 2004, and September 1, 2004, respectively, using O&M funds.
        The Air Force Medical Support Agency required End User Devices in support
        of the worldwide deployment of Composite Health Care Systems to Air Force
        Medical Facilities. FY 2004 O&M funds expired on September 30, 2004. As
        of January 4, 2005, GSA has not awarded a contract action for the
        requirements for MIPR NMIPRO4524141. The receipt of goods after the
        DoD appropriation expired could not be justified because of delivery time,
        production lead-time, or unforeseen delays. Therefore, no bona fide need
        existed.

    32. Web Management Design. The Air Force Medical Support Agency sent
        MIPR NMIPR405203590 for approximately $1.7 million and
        MIPR NMIPR045204164 for $288,000 to GSA on October 16, 2003, and
        September 28, 2004, respectively, using FY 2004 O&M funds. The Air Force
        Medical Support Agency required Web Management, Design, and Contract
        Support. GSA awarded a contact with funds from MIPR NMIPR405203590
        on January 28, 2004. However, the Air Force Medical Support Agency
        personnel could not determine whether GSA awarded a contract for
        MIPR NMIPR045204164 as of January 5, 2005. Contracts for severable
        services must be formed in the fiscal year of the funds being used. Services
        under such contracts must meet the bona fide needs rule. Accordingly, we
        believe the Air Force Medical Support Agency did not have a bona fide need
        for the FY 2004 O&M funds used on MIPR NMIPR045204164. Furthermore,
        the Air Force Medical Support Agency used O&M funds for the purchase of
        developmental type equipment, which should have been funded with RDT&E
        funds. RDT&E Funds are used to develop major system upgrades, to
        purchase test articles, and to conduct developmental testing and initial
        operational testing and evaluation prior to system acceptance and subsequent
        production. The Air Force Medical Support Agency used the incorrect
        appropriation for this purchase. Also, the Air Force Medical Support Agency
        funded the FY 2005 option year with a combination of FY 2002 and 2003
        O&M funds. See section on Improper Use of Funds, page 13 for further
        details.

U.S. Southern Command
    33. Debit Card Pilot Program. The Southern Command sent
        MIPR MIPR3L21F60012 for $637,294 to GSA on August 13, 2003 and
        MIPR MIPR3L21F60012 Amendment 1 for $150,000 to GSA on
        September 25, 2003, using O&M funds. GSA awarded the contract on
        August 20, 2003. The requirement is for testing the U.S. Debit Card for the
        U.S. Treasury Department and developing an interface with DoD financial
        systems. RDT&E Funds are used to develop major system upgrades, to


                                       41
       purchase test articles, and to conduct developmental testing and initial
       operational testing and evaluation prior to system acceptance and subsequent
       production. Because the Southern Command is requiring contractors to
       perform testing and developmental efforts, RDT&E Funds should have been
       used instead of O&M Funds. Therefore, the Southern Command used the
       incorrect appropriation.

    34. Joint Detainee Information Management System. The Southern Command
        sent MIPR MIPR4K47G6U199 for approximately $573,000 to GSA on
        July 26, 2004, using O&M funds. The Southern Command required various
        hardware and software for the Joint Detainee Information Management
        System. The modification of a system with a cost of $250,000 or more is an
        investment and should be funded with Other Procurement Funds. Therefore,
        the Southern Command used the incorrect appropriation.

Defense Manpower Data Center
    35. Universally Accepted Credentials. The Defense Manpower Data Center
        sent MIPR X14H5A44F136MP, Amendment 1 for $360,000 to GSA on
        September 28, 2004, using O&M funds. The Defense Manpower Data Center
        required commercial off the shelf hardware and software, technical support
        services, and hardware maintenance. GSA had not placed the funds on the
        contract as of December 15, 2004. The procurement for services was
        severable and met a FY 2005 requirement. In addition, the receipt of goods
        after the DoD appropriation expired could not be justified because of delivery
        time, production lead-time, or unforeseen delays. Therefore, no bona fide
        need existed.

    36. Beneficiary Services and Ancillary Support. The Defense Manpower Data
        Center sent MIPR XK3H5A33F273MP for $6 million to GSA on
        September 26, 2003, using O&M funds. The Defense Manpower Data Center
        required highly qualified on-site technical support contractor personnel to
        provide local area network/wide area network engineering and administration,
        Unix system administration support, Oracle database support, technical
        writing, and project planning and management as Defense Management Data
        Center Systems Integration and Technical Support Division staff. GSA
        awarded the contract in October 2004. The procurement for services was
        severable and met a FY 2005 requirement. Therefore, no bona fide need
        existed in the year of the appropriation.

    37. Defense Biometric Identification System. The Defense Manpower Data
        Center sent MIPR XK4H5A44F288MP Amendment 1 for $1.25 million to
        GSA on September 28, 2004, using O&M funds. The Defense Manpower
        Data Center required highly qualified personnel for both ongoing and ad hoc
        Common Access Card failure analysis, durability analysis, and Common
        Access Card Program Support for the Enterprise Defense Biometric
        Identification System and Defense Cross-Certification Identification System.
        The Defense Manpower Data Center sent the MIPR using FY 2004 funds,
        however; as of December 16, 2004, GSA had not placed the funds on the



                                        42
   contract. FY 2005 funds should have been used for this severable services
   contract.

38. CAC Vulnerability. The Defense Manpower Data Center sent
    MIPR XX4H5A44F222MP Amendment 1 for $350,000 to GSA on
    August 12, 2004, using O&M funds. The requirement is for the continued
    testing of the Common Access Card vulnerability testing to ensure Common
    Access Card security. As of December 16, 2004, GSA had not obligated the
    MIPR funds on a contract. Accordingly, the bona fide need rule had not been
    met. FY 2004 O&M funds expired on September 30, 2004. Therefore,
    FY 2005 funds should have been used for this purchase.




                                   43
Appendix D. Potential Antideficiency Act
            Violations That Occurred Primarily
            in FY 2005
    Appendix D identifies 69 potential FY 2005 ADA violations identified at GSA,
    the Department of the Interior, NASA, and the Department of the Treasury.
    Additional details regarding each potential ADA violation may be available in our
    reports addressing contracts and funding problems at GSA, the Department of the
    Interior, NASA, and the Department of the Treasury. See Appendix C for
    potential ADA violations from DoD IG Report No. D-2005-096, “DoD Purchases
    Made Through the General Services Administration,” July 29, 2005.


GENERAL SERVICES ADMINISTRATION


U.S. Army Intelligence Center and Fort Huachuca
       1. Interactive Multimedia. The U.S. Army Intelligence Center and Fort
          Huachuca sent MIPRs MIPR5FGSA5W054, MIPR5FGSA5W055,
          MIPR5FGSA5W056, and MIPR5FGSA5W057 (totaling approximately
          $2.61 million) to GSA on March 25, 2005, to obtain multimedia
          courseware development using a special FY 2004 O&M fund that lasts
          2 years. The fund used expired on September 30, 2005. As of
          December 1, 2005, GSA had not awarded a contract. Use of FY 2004
          2-year O&M funds to satisfy FY 2006 requirements does not meet the
          intent of the bona fide needs rule.


Fleet Numerical Meteorology and Oceanography Center
       2. NetCentric FastTrack Services. The Fleet Numerical Meteorology and
          Oceanography Center sent funding document N63134-04-WR-00004 for
          $386,000 to GSA on September 9, 2003, and GSA accepted the funding
          document on September 24, 2003; N63134-04-WR-00004, amendment 1
          for negative $386,000 to GSA on September 29, 2003; N63134-04-WR-
          00004, amendment 2 for $350,000 to GSA on September 29, 2003;
          funding document N63134-04-WR-00004, amendment 3 for negative
          $105,038 to GSA on July 14, 2004; and funding document N63134-04-
          WR-0004, amendment 4 for $156,000 (citing FY 2004 O&M funds) to
          GSA on October 28, 2004. The total of the FY 2004 funding documents
          was $400,962, using O&M Funds. The center was procuring severable
          services consisting of contractor subject matter expertise in exploring
          methods to exploit Web-based information systems. The services being
          procured were severable and the period of performance was from May 26,


                                       44
   2005, through May 25, 2006, a period that crosses from FY 2005 to
   FY 2006. Use of FY 2004 O&M funds to satisfy FY 2005 requirements
   does not meet the intent of the bona fide needs rule.

3. Trusted Service Engine. The Fleet Numerical Meteorology and
   Oceanography Center sent funding document N63134-04-WR-00059 for
   $850,000 to GSA on September 16, 2004, and funding document N63134-
   04-WR-00059, amendment 1 for a negative $10,035 to GSA on May 26,
   2005, for a total of $839,965 in FY 2004 O&M funds. The contract was
   for services to demonstrate that computer users will be limited to viewing
   information at their security classification level or lower when working on
   multiple networks with information of varying security classification
   levels. The period of performance for the severable services being
   procured was May 25, 2005, through January 31, 2006, a period that
   crosses from FY 2005 to FY 2006. Use of FY 2004 O&M funds to satisfy
   FY 2005 requirements does not meet the intent of the bona fide needs rule.

4. Come and Get It Product Services. The Fleet Numerical Meteorology
   and Oceanography Center sent funding documents N63134-04-WR-00037
   for $240,000 to GSA on July 20, 2004; amendment 1 for $1,256,690 to
   GSA on September 8, 2004; amendment 2 for $595,000 to GSA on
   September 10, 2004; amendment 3 for negative $20,000 to GSA on
   September 16, 2004; amendment 4 for $134,501 to GSA on September 29,
   2004; and amendment 5 for negative $195,574 to GSA on October 28,
   2004. They also sent funding document N63134-04-WR00028 for
   $60,000 to GSA on May 17, 2004, and amendment 1 for $10,000 to GSA
   on September 8, 2004. In FY 2005, the Fleet Numerical Meteorology and
   Oceanography Center sent funding document N6313405WR00701 for
   $33,036 to GSA on November 22, 2004; amendment 1 for $166,963 to
   GSA on December 1, 2004; amendment 2 for negative $33,036 to GSA on
   September 22, 2005; and amendment 3 for negative $13,318 to GSA on
   September 28, 2005. This purchase was funded for $2,080,617 in
   FY 2004 O&M funds and $153,645 in FY 2005 O&M funds. This
   procurement was an upgrade to the Primary Oceanographic Prediction
   system. The Fleet Numerical Meteorology and Oceanography Center
   should have used Other Procurement funds for this purchase, not O&M
   funds. Therefore, the Fleet Numerical Meteorology and Oceanography
   Center used the incorrect appropriation. GSA awarded the contract
   January 4, 2005.

5. Information Assurance. The Fleet Numerical Meteorology and
   Oceanography Center sent funding document N6313404WR00056 for
   $600,000 to GSA on September 15, 2004; funding document
   N6313404WR00064 for $300,000 to GSA on September 29, 2004; and
   funding document N6313404WR00064, amendment 1 for negative
   $136,336 to GSA on October 28, 2004. The funding totaled $763,664 in
   FY 2004 O&M funds, which expired on September 30, 2004. The
   services being obtained were support services for information assurance
   projects dealing with weather forecasts that are being transmitted to the
   warfighter. The period of performance for the severable services being


                                45
          procured was January 4, 2005, through January 3, 2006, a period that
          crosses from FY 2005 to FY 2006. Use of FY 2004 O&M funds to satisfy
          FY 2005 requirements does not meet the intent of the bona fide needs rule.


Air Force Accounting and Finance Office
       6. Kiosks. The Air Force Finance and Accounting Office sent MIPR
          F1AF2B5265G001 for $1,400,000 to GSA on September 22, 2005, using
          FY 2005 O&M funds. The funds were to purchase automated kiosks that
          allow Air Force personnel to make inquiries about and changes to their
          pay and personnel records. The contract for the kiosks, which are
          considered commercial items, was awarded October 25, 2005. The
          Air Force Finance and Accounting Office purchased commercial items
          that will be delivered in FY 2006 using FY 2005 O&M funds. The receipt
          of goods after the DoD appropriation expired could not be justified
          because of delivery time, production lead-time, or unforeseen delays. Use
          of FY 2005 O&M funds to satisfy FY 2006 requirements does not meet
          the intent of the bona fide needs rule.

U.S. Central Command, Air Force
       7. Network Operation Security Center. The U.S. Central Command,
          Air Force sent MIPR F3UTA65168GC01 for $16,999,993 to GSA on
          June 20, 2005; amendment 1 for $1,748,238 on August 30, 2005; and
          amendment 2 for negative $245,046 on September 23, 2005, using a
          2-year FY 2004 O&M fund that expired on September 30, 2005. The
          funds were to purchase severable services supporting the Network
          Operations Security Center including networking, systems modeling,
          performance management, information assurance, routing, and switching.
          A bridge contract was first awarded with a period of performance from
          August 1, 2005, through September 30, 2005. The 2-year FY 2004 funds
          were also used to fund a FY 2006 contract with a period of performance
          form October 1, 2005, through September 30, 2006. Use of FY 2004
          2-year O&M funds to satisfy FY 2006 requirements does not meet the
          intent of the bona fide needs rule.

Joint Information Operations Center
       8. IT and Operations Support (J2). For contracted support at the Joint
          Information Operations Center, the Headquarters, U.S. European
          Command sent MIPR MIPR4JGSAJ2043 for $311,709 to GSA on June 1,
          2004, using FY 2004 O&M funds to partially fund a purchase for IT and
          operational expertise supporting the U.S. European Command, which
          includes integration of current IT, identifying information operations
          applicable databases, and technical expertise. GSA awarded the contract
          November 4, 2004. Use of FY 2004 O&M funds to satisfy FY 2005
          requirements does not meet the intent of the bona fide needs rule.


                                      46
       9. Network System Support and Administration. The Joint Information
          Operations Center sent MIPR NMIPR04250037 for $875,000 to GSA on
          September 25, 2003; MIPR NMIPR04250550 for $418,788 to GSA on
          September 8, 2004; MIPR NMIPR04250551 for $586,212 to GSA on
          September 8, 2004; and MIPR NMIPR04250558 for $6,148 to GSA on
          September 14, 2004, for a total of $1,886,148 in FY 2004 O&M funds.
          The Joint Information Operations Center also sent MIPR
          F2MTKV5244G002 for $1,031,557 to GSA on October 13, 2005, using
          FY 2006 O&M funds. The funds were to purchase severable services
          supporting the command’s network. The funds were used to cover a base
          contract period from September 15, 2003, through September 30, 2004,
          for $849,000; option year 1, from October 1, 2004, through September 30,
          2005, for $891,000; and option year 2, from October 1, 2005, through
          September 30, 2006, for $891,000. Since no FY 2005 funds were sent to
          support option year 1, in FY 2005, it appears the services received that
          year were funded with FY 2004 funds. Use of FY 2004 O&M funds to
          satisfy FY 2005 requirements does not meet the intent of the bona fide
          needs rule.

       10. Personal Video Systems. The Joint Information Operations Center sent
           MIPR F2MTKV5262G001 for $73,912 to GSA on September 19, 2005,
           using FY 2005 O&M funds to purchase various Tandberg equipment,
           including 12 personal video systems. As of January 2006, no contract had
           been awarded for the equipment; therefore, the equipment will be
           delivered in FY 2006 or later. The receipt of goods after the DoD
           appropriation expired cannot be justified because of delivery time,
           production lead-time, or unforeseen delays. Use of FY 2005 O&M funds
           to satisfy FY 2006 requirements does not meet the intent of the bona fide
           needs rule.

       11. Joint Multi-Disciplinary Vulnerability Assessment. The Joint
           Information Operations Center sent MIPR F2MTKV5258G001 for
           $392,494 to GSA on September 20, 2005, using FY 2005 O&M funds.
           The funds were to purchase equipment in support of the Joint Multi-
           Disciplinary Vulnerability Assessment. As of January 2006, no contract
           had been awarded for the equipment; therefore, the equipment will be
           delivered in FY 2006 or later. The receipt of goods after the DoD
           appropriation expired cannot be justified because of delivery time,
           production lead-time, or unforeseen delays. Use of FY 2005 O&M funds
           to satisfy FY 2006 requirements does not meet the intent of the bona fide
           needs rule.

Defense Security Service
       12. National Industrial Security Program Certification and Accreditation
           Tools. The Defense Security Service sent MIPR NMIPR04970376 for
           $310,000 to GSA on September 17, 2004, using FY 2004 O&M funds.
           The funds were to purchase the testing of automated certification and


                                       47
           accreditation tools, program management support, and independent
           verification and validation of automated tools. The contract for these
           severable services was awarded on August 25, 2005, for a period of
           performance of August 26, 2005, through August 25, 2006, a period that
           crosses from FY 2005 to FY 2006. Use of FY 2004 O&M funds to satisfy
           FY 2005 requirements does not meet the intent of the bona fide needs rule.

DEPARTMENT OF THE INTERIOR


Department of Defense, Office of Inspector General
        13. DOI [Department of the Interior] Contract NBCHD020037. Potential
            bona fide needs rule violations may have occurred for four orders issued
            by Southwest Acquisition Branch contracting officials under contract
            NBCHD020037. The DoD OIG ordered various types of computer
            equipment. The National Business Center, Southwest Acquisition Branch
            contracting officials awarded the five orders, for a total of $396,724,
            between September 25 and September 29, 2005. For three of the orders,
            the DoD OIG did not receive the equipment until FY 2006. Therefore,
            three separate potential ADA violations may have occurred. In addition,
            one potential ADA violation may have occurred for one other order
            because the order was awarded at the end of FY 2005 and the delivery
            date could not be determined. There was no evidence that a long lead-
            time was required to purchase these items, that the items were needed to
            replenish the inventory, or that there was an unforeseen delay in
            purchasing these items. Use of FY 2005 O&M funds to satisfy FY 2006
            requirements does not meet the intent of the bona fide needs rule.

Office of the Administrative Assistant to the Secretary
  of the Army
        14. DOI Contract 41181. A GovWorks contracting officer awarded contract
            action 41181 to purchase decision agent network equipment for the
            Pentagon Telecommunications Service Center for $108,196. DOI contract
            action 41181, awarded on December 21, 2004, was partially funded for
            $72,033, using FY 2001 Army O&M funds that expired on September 30,
            2001. The three MIPRs include MIPR1MINTPR070 for $6,831;
            MIPR1JDIT0N046 for $26,399; and MIPR1KINTWS058 for $38,803.
            MIPR MIPR4MINTMM125 for $36,162, using FY 2004 O&M funds was
            also used to fund the purchase. The equipment consisted of commercial
            items and there was no evidence that a long lead-time was required to
            purchase these items, or that the items were needed to replenish the
            inventory, or that there was an unforeseen delay in purchasing these items.
            Use of FY 2001 O&M funds to satisfy FY 2005 requirement does not
            meet the intent of the bona fide needs rule.




                                        48
15. DOI Contract 41181, Modification 0001. A GovWorks contracting
    officer issued modification 0001 to contract action 41181 on January 18,
    2005. Under modification 0001, the contracting officer removed $26,399
    from one of the original Army FY 2001 O&M MIPRs used to fund
    contract action 41181 and replaced it with funds from four other expired
    Army O&M MIPRs. The four MIPRs include MIPR MIPR0MGSAIT092
    for $160, using FY 2000 O&M funds; MIPR MIPR1MITST0074 for
    $3,176, using FY 2001 O&M funds; and MIPRs MIPR4LINTMM111 for
    $11,393 and MIPR4MINTMM130 for $11,669, using FY 2004 O&M
    funds. Use of FYs 2000, 2001, and 2004 O&M funds to satisfy FY 2005
    requirements does not meet the intent of the bona fide needs rule.

16. DOI Contract 40966. A GovWorks contracting officer awarded contract
    action 40966 for $521,679 to purchase 71 computer servers for the
    Pentagon Telecommunications Service Center. GovWorks awarded
    contract action 40966 on November 30, 2004, funded with MIPR
    MIPR4MINIMM125, using FY 2004 Army O&M funds that expired on
    September 30, 2004. The computer servers were commercial items and
    there was no evidence that a long lead-time was required to purchase these
    items, or that the items were needed to replenish the inventory, or there
    was an unforeseen delay in purchasing these items. Use of FY 2004
    O&M funds to satisfy FY 2005 requirement does not meet the intent of the
    bona fide needs rule.

17. DOI Contract 41063. On November 24, 2004, a GovWorks contracting
    officer awarded contract action 41063 for $3,840 to purchase an IBM
    Server Warranty for the Pentagon Telecommunications Center. Contract
    action 41063 was partially funded with O&M funds that had expired.
    MIPR MIPR2MINTMM081 for $158 and MIPR MIPR2MINTMM077 for
    $1,429 used FY 2002 O&M funds that expired on September 30, 2002.
    MIPR MIPR4BINTMM012 for $1,382 used FY 2004 Army O&M funds
    that expired on September 30, 2004. In addition, MIPR
    MIPR2LINTMM075 for $870 used FY 2002 Army other procurement
    funds that expired on September 30, 2004. Use of FY 2002 and FY 2004
    O&M funds and FY 2002 other procurement funds to satisfy a FY 2005
    requirement does not meet the intent of the bona fide needs rule.

18. DOI Contract 41432. On February 8, 2005, a GovWorks contracting
    officer awarded contract action 41432 for $7,476 to purchase three
    42-inch high-definition plasma televisions for the Pentagon
    Telecommunications Center. Contract action 41432 was funded with
    MIPR MIPR4MINTMM130, using FY 2004 Army O&M funds that
    expired on September 30, 2004. The equipment consisted of commercial
    items and there was no evidence that a long lead-time was required to
    purchase these items, or that the items were needed to replenish the
    inventory, or that there was an unforeseen delay in purchasing these items.
    Use of FY 2004 O&M funds to satisfy FY 2005 requirements does not
    meet the intent of the bona fide needs rule.




                                49
19. DOI Contract 1435-04-02-CT-85531, Order 43387. The Pentagon
    Telecommunication Center issued multiple MIPRs to purchase technical
    and functional support services. Of the 17 MIPRs used,
    MIPR MIPR3LINTMM101 used $1,038,376 with FY 2003 O&M funds,
    which expired on September 30, 2003. The Pentagon Telecommunication
    Center sent seven MIPRs (MIPR4GINTMM058, MIPR4GINTMM059,
    MIPR4HINTMM069, MIPR4JINTMM072, MIPR4JINTMM080,
    MIPR4JINTMM086, and MIPR4JINTMM089), totaling $313,320, using
    FY 2004 O&M funds, which expired on September 30, 2004. In addition,
    six other MIPRs (MIPR4KINTMM093, MIPR4KINTMM095,
    MIPR4KINTMM096, MIPR4LINTMM115, MIPR4MINTMM123, and
    MIPR4MINTMM129) totaling $1,046,834 may be potential ADA
    violations. GovWorks awarded contract action 43387, a multiple-award
    order, on June 30, 2005. The value of order 43387 was $3,908,449 and
    the period of performance was from July 1, 2005, through December 31,
    2005. Use of FY 2003 and FY 2004 O&M funds to satisfy FY 2005
    requirements does not meet the intent of the bona fide needs rule.

20. DOI Contract 1435-04-02-CT-85531, Order 41160. On December 30,
    2004, a GovWorks contracting officer awarded contract action 41160, a
    multiple-award order for $555,738 to purchase a transitional enhanced
    communications gateway system and associated installation and support
    for the Pentagon Telecommunications Center. The delivery of the system
    was no later than 120 days from the date of contract action 41160,
    December 30, 2004. A GovWorks contracting officer used funds from
    five MIPRs, totaling $555,738, to fund the contract. The Pentagon
    Telecommunications Center partially funded the purchase with MIPR
    MIPR3MINTMM113, for $120,000, using FY 2003 O&M funds; MIPR
    MIPR3MINTMM112 for $120,000, using FY 2003 O&M funds; MIPR
    MIPR3MINTMM114 for $200,000, using FY 2003 funds. FY 2003
    O&M funds expired on September 30, 2003. Use of FY 2003 O&M funds
    to satisfy a FY 2005 requirement does not meet the intent of the bona fide
    needs rule. This purchase was also funded with MIPR MIPR-2-F-D0IIT-
    045, for $95,709 using FY 2002 Other Procurement funds. FY 2002
    Other Procurement funds expired September 30, 2004. Use of FY 2002
    through 2004 funds to satisfy a FY 2005 requirement does not meet the
    intent of the bona fide needs rule. According to the contract file, $492,791
    of the $555,739 contract action value was related to equipment; however,
    the contracting officer only obligated $115,738 of Other Procurement
    funds under two MIPRs to fund the equipment portion of the purchase.
    The remaining $377,053.20 of equipment was funded with O&M funds
    that were also used to fund contract action 41160. Therefore, an incorrect
    appropriation, O&M, was used to partially fund this purchase. Other
    Procurement funds should have been used.

21. DOI Contract 44435. On August 29, 2005, a GovWorks contracting
    officer awarded contract action 44435 for $37,643 to purchase 40 laser jet
    printers for the Pentagon Telecommunications Center. Contract
    action 44435 was funded with funds from MIPR4GINTMM054, using
    FY 2004 Army O&M funds that expired on September 30, 2004. The
    equipment consisted of commercial items and there was no evidence that a


                                 50
          long lead-time was required to purchase these items, or that the items were
          needed to replenish the inventory, or that there was an unforeseen delay in
          purchasing these items. The delivery date for these items was 30 days
          after the date of the order. Use of FY 2004 Army O&M funds to satisfy
          FY 2005 requirements does not meet the intent of the bona fide needs rule.

       22. DOI Contract 41242. On December 10, 2004, a GovWorks contracting
           officer awarded contract action 41242 for $113,388 to purchase
           75 Microsoft Windows Server Enterprise 2003 software licenses for the
           Pentagon Telecommunications Center. The contracting officer used
           MIPR4MINTMM125, with FY 2004 Army O&M funds that expired on
           September 30, 2004. The equipment consisted of commercial items and
           there was no evidence that a long lead-time was required to purchase these
           items, or that the items were needed to replenish the inventory, or that
           there was an unforeseen delay in purchasing these items. Use of FY 2004
           O&M funds to satisfy requirements in FY 2005 does not meet the intent of
           the bona fide needs rule.


Army Training and Doctrine Command
       23. DOI Contract 43852. A GovWorks contracting officer awarded contract
           action 43852 for $94,075 to purchase services for the Army Training
           Support Center, related to a training ammunition calculator, used to
           calculate ammunition requirements for training purposes at Army
           locations. MIPR MIPR4KBELG3066 issued on July 12, 2004, funded
           contract action 43852. The period of performance of the contract action
           was from July 31, 2005, until 3 months after receipt of order, or
           October 31, 2005. Use of FY 2004 Army O&M funds to satisfy a
           requirement in FY 2005 does not meet the intent of the bona fide needs
           rule.


U.S. Army Intelligence and Security Command
       24. DOI Blanket Purchase Agreement 40699, Task Order 41801,
           Modification 0002. On May 5, 2005, a GovWorks contracting officer
           issued modification 0002 under contract action 41801 for $920,970, to add
           funding to purchase services related to the U.S. Air Force Horned Owl
           Program for the U.S. Army Program Management Office Airborne
           Reconnaissance Low. DOI contracting officials used a portion of the
           funds from two existing DoD MIPRs to fund modification 0002. MIPR
           MIPR4DINT04166, from the U.S. Army Intelligence and Security
           Command for $120,000, was issued on January 10, 2004, using Army
           FY 2004 O&M funds, which expired on September 30, 2004. Use of
           FY 2004 O&M funds to satisfy requirements in FY 2005 does not meet
           the intent of the bona fide needs rule.



                                       51
Naval Sea Systems Command
      25. DOI Contract 40385. On October 15, 2004, a GovWorks contracting
          officer awarded contract action 40385 for $3,390 to purchase 226 weapon
          cleaning kits for the Naval Sea Systems Command Fleet
          Antiterrorism/Force Protection. Contract action 40385 was funded with
          MIPR N6553804MP00018, using FY 2004 Navy O&M funds, which
          expired on September 30, 2004. There was no evidence that a long lead-
          time was required to purchase these items, or that the items were needed
          to replenish the inventory, or that there was an unforeseen delay in
          purchasing these items since the items were to be delivered by
          November 26, 2004. Use of FY 2004 O&M funds to satisfy FY 2005
          requirements does not meet the intent of the bona fide needs rule.

      26. DOI Contract 43270. On May 20, 2005, a GovWorks contracting officer
          awarded contract action 43270 for $61,112 to purchase 50 sets of
          T1 special body armor and 100 gamma plates for Naval Sea Systems
          Command Fleet Antiterrorism/Force Protection. Contract action 43270
          was funded with MIPR N6553804MP00018, using FY 2004 Navy O&M
          funds that expired on September 30, 2004. There was no evidence that a
          long lead-time was required to purchase these items or that there was an
          unforeseen delay in purchasing these items since the items were to be
          delivered by June 17, 2005. There was evidence, though, that the purpose
          of contract 43270 was to replenish inventory; however, the evidence was
          not convincing. Documentation in the contract files stated that the
          “subject order is to replenish current stock that is distributed to various
          units.” Use of FY 2004 Navy O&M funds that expired on September 30,
          2004, were used to fund this purchase on May 20, 2005, or almost
          8 months after the end of FY 2004.

      27. DOI Contract 40387. On October 17, 2004, a GovWorks contracting
          officer awarded contract action 40387 for $10,170 to purchase 226 pairs
          of gloves and goggles for Naval Sea Systems Command Fleet
          Antiterrorism/Force Protection. Contract action 40387 was funded from
          MIPR N6553804MP00018, using FY 2004 Navy O&M funds that expired
          on September 30, 2004. There was no evidence that the items were
          needed to replenish the inventory, or a long lead-time was required to
          purchase these items, or that there was an unforeseen delay in purchasing
          these items. The items were to be delivered by November 26, 2004. Use
          of FY 2004 O&M funds to satisfy FY 2005 requirements does not meet
          the intent of the bona fide needs rule.

      28. DOI Contract 43280. On May 17, 2005, a GovWorks contracting officer
          awarded contract action 43280 for $1,328 to purchase 15 pairs of goggles
          and 15 balaclavas for Naval Sea Systems Command Fleet
          Antiterrorism/Force Protection. Contract action 43280 was funded from
          MIPRN6553804MP00018, using FY 2004 Navy O&M funds that expired
          on September 30, 2004. There was no evidence that the items were
          needed to replenish the inventory, or a long lead-time was required to
          purchase these items, or that there was an unforeseen delay in purchasing


                                      52
   these items. The items were to be delivered by November 26, 2004. Use
   of FY 2004 O&M funds to satisfy FY 2005 requirements does not meet
   the intent of the bona fide needs rule.

29. DOI Contract 41907. On January 24, 2005, a GovWorks contracting
    officer awarded contract action 41907 for $3,168 to purchase 132 radio
    pouches for Naval Sea Systems Command Fleet Antiterrorism/Force
    Protection. Contract action 41907 was funded from MIPR
    N6553804MP00018, citing FY 2004 Navy O&M funds that expired on
    September 30, 2004. There was no evidence that the items were needed to
    replenish the inventory, or a long lead-time was required to purchase these
    items, or that there was an unforeseen delay in purchasing these items.
    The items were to be delivered by February 11, 2005. Use of FY 2004
    O&M funds to satisfy FY 2005 requirements does not meet the intent of
    the bona fide needs rule.

30. DOI Contract 42912. On April 19, 2005, a GovWorks contracting
    officer awarded contract action 42912 for $71,137 to purchase 40 desert
    camouflage body armor systems for Naval Sea Systems Command Mobile
    Security Force Command. Contract action 42912 was funded from MIPR
    N6553803MP00013, using Navy FY 2003 O&M funds that expired on
    September 30, 2003. The funds expired 1 year and 7 months before they
    were used to fund the contract. Use of FY 2003 O&M funds to satisfy
    FY 2005 requirements does not meet the intent of the bona fide needs rule.

31. DOI Contract 43329. On May 20, 2005, a GovWorks contracting officer
    awarded contract action 43329 for $1,158 to purchase 20 pairs of
    kneepads and 20 pairs of elbow pads for Naval Sea Systems Command
    Mobile Security Force Command. Contract action 43329 was funded
    from MIPR N6553804MP00018, using Navy FY 2004 O&M funds that
    expired on September 30, 2004. There was no evidence that the items
    were needed to replenish the inventory, or a long lead-time was required
    to purchase these items, or that there was an unforeseen delay in
    purchasing these items. The items were to be delivered by June 27, 2005.
    Use of FY 2004 O&M funds to satisfy FY 2005 requirements does not
    meet the intent of the bona fide needs rule.

32. DOI Contract 43349. On May 24, 2005, a GovWorks contracting officer
    awarded contract action 43349 for $1,369 to purchase 12 specialized bags
    for Naval Sea Systems Command Mobile Security Force Command.
    Contract action 43349 was funded with MIPR N6553804MP00018, using
    Navy FY 2004 O&M funds that expired on September 30, 2004. There
    was no evidence that the items were needed to replenish the inventory, or
    a long lead-time was required to purchase these items, or that there was an
    unforeseen delay in purchasing these items. The items were to be
    delivered by June 27, 2005. Use of FY 2004 O&M funds to satisfy
    FY 2005 requirements does not meet the intent of the bona fide needs rule.




                                53
Naval Facilities Engineering Command Headquarters
       33. DOI Blanket Purchase Agreement 32178, Task Order 73545. A
           GovWorks contracting official used FY 2003 O&M funds for task order
           73545, which was to purchase technical services related to the
           development of geospatial representations of Navy installation boundaries
           for the Naval Facilities Engineering Command. The period of
           performance for the contract action was October 1, 2003, through
           September 30, 2004. The funds on NMIPR039209671, totaling
           $1,559,085, sent on August 14, 2003, were only available for use for
           12 months, ending August 18, 2004. At least some of the funds were used
           beyond August 18, 2004, since no additional funds were added to the task
           order until April 6, 2005. Use of FY 2003 O&M funds to satisfy future
           requirements does not meet the intent of the bona fide needs rule.


Counterintelligence Field Activity
       34. DOI Contract 1435-04-03-RC-73024 and DOI Contract 1435-04-03-
           RC-70941. CIFA did not follow the required procedures for obtaining
           office space in the National Capital Region. Specifically, the 10-year,
           $100 million lease was obtained through a Section 8(a) contractor rather
           than GSA, as required by statute. The lack of authority for CIFA to enter
           the lease violated many statutes, including the ADA, and circumvented the
           required congressional review and approval process.

                  Lack of Authority to Enter the Leases. Section 3307, title 40,
          United States Code establishes a prospectus threshold authority for leases
          of $2.21 million for FY 2003. Only GSA is permitted to enter leases in
          excess of the threshold. A potential ADA violation may have occurred
          because the lease agreement required lease payments of at least
          $6.575 million per year, which is above the $2.21 million threshold.
          Because CIFA did not follow the prescribed procedure for obtaining lease
          space, CIFA circumvented required Congressional notification and
          approval process, as prescribed in 10 U.S.C. 2662(a)(2),
          40 U.S.C. 3307(a), and Federal Management Regulation
          section 102-73.65.

                   Lack of Authority To Make Building Alterations. Section 3307,
          title 40, United States Code also establishes a prospectus threshold
          authority for the construction and alteration of leased buildings. The
          prospectus threshold for lease space alterations in FY 2003 was
          $1.1066 million. A potential ADA violation may have occurred because
          CIFA made leased space alternations of $14.7 million under
          contract 1435-04-03-RC-70941 during FY 2003 and did not obtain the
          required congressional approval. The prospectus threshold for lease space
          alternations in FY 2004 was $1.1450 million. A potential ADA violation
          may have occurred because CIFA made space alterations of at least



                                      54
           $7.9 million under contract 1435-04-03-RC-3024 during FY 2004 and did
           not obtain the required congressional approval.

                   Potential Violations of the Bona Fide Needs Rule. The TKC
           communications contract has provisions that permitted CIFA to repay the
           costs for its building alterations incurred during FY 2003 over the life of
           the lease. The contractor performed the construction during FY 2003, but
           permitted CIFA to pay for the construction over the duration of the lease.
           The contract had an amortization schedule showing the interest charges.
           A potential bona fide need violation may have occurred because CIFA
           paid the costs of the building alternations over the life of the loan instead
           of paying for the alterations in the fiscal year in which the alterations
           occurred. Additionally, the terms of the contract created a liability to the
           Government before the Congress had appropriated the funds, which
           violated 31 U.S.C. 1341(a)(1)(A) and the U.S. Constitution, Article 1,
           Section 9, clause 7. Similarly, the contracting clause for termination of
           the lease required payment of any remaining balance on the building
           alteration loan and payment of rent for the next 12 months. This contract
           provision also violated 31 U.S.C 1341(a)(1)(A) and the U.S. Constitution,
           Article 1, Section 9, clause 7.

                  Potential Violation of Purpose Statute. CIFA paid for its
           building alterations using O&M funds. However, military construction
           funds should have been used. The failure to use military construction
           funds potentially violated 31 U.S.C. 1301 and 10 U.S.C 2805. Therefore,
           CIFA used an incorrect appropriation.


NATIONAL AERONAUTICS AND SPACE
  ADMINISTRATION


Office of Naval Intelligence
        35. Order N66001-05-F-Q174. A DoD contracting officer awarded purchase
            order N66001-05-F-Q174 to purchase various computer hardware, such as
            workgroup switches for the Navy for $64,271, using FY 2005 Navy
            O&M funds, which expired on September 30, 2005. Both the Office of
            Naval Intelligence and Joint Systems Integration Command funded the
            purchase. The order was awarded on September 19, 2005, but the
            hardware was not scheduled to be delivered until October 7, 2005.
            Deliveries of the goods were received from October 26 through
            December 27, 2005. The receipt of goods after the DoD appropriation
            expired could not be justified because of production lead-time or
            unforeseen delays. Use of FY 2005 O&M funds to satisfy FY 2006
            requirements does not meet the intent of the bona fide needs rule.



                                        55
Assistant Secretary of the Air Force (Financial Management
  and Comptroller)
       36. Order HC1047-05-F-4552. A DoD contracting officer awarded purchase
           order HC1047-05-F-4552 for IT hardware and software for $983,878.
           The order was awarded using FY 2005 Air Force O&M funds. Because
           the order exceeded $250,000, procurement funds should have been used.
           Therefore, the Air Force used an incorrect appropriation. Also, the order
           was awarded on September 28, 2005, and scheduled delivery for
           October 28, 2005. The items were not delivered until November 4, 2005.
           The receipt of goods after the DoD appropriation expired could not be
           justified by production lead-time or unforeseen delays. Use of FY 2005
           O&M funds to satisfy a FY 2006 requirement does not meet the intent of
           the bona fide needs rule.


U.S. Central Command
       37. Order FA4814-05-F-A814. A DoD contracting officer awarded purchase
           order FA41814-05-F-A814 for various computer equipment. The order
           purchased computer equipment, such as the Gateway E6300 personal
           computer. The value of the order was $758,442 and used FY 2005
           Air Force O&M funds, which expired on September 30, 2005. Because
           the value of the order exceeded $250,000, procurement funds should have
           been used. Therefore, the U.S. Central Command used incorrect
           appropriation. Also, the order was awarded on September 19, 2005, and
           scheduled delivery for October 19, 2005. The equipment was not
           delivered until November 3, 2005. The receipt of goods after the DoD
           appropriation expired could not be justified by production lead-time or
           unforeseen delays. Use of FY 2005 O&M funds to satisfy a FY 2006
           requirement does not meet the intent of the bona fide needs rule.
       38. Order FA4814-05-F-A731. A DoD contracting officer awarded purchase
           order FA4814-05-F-A731 for Host Base Intrusion Detection System
           Components. The value of the order was $507,271 and used FY 2005
           Air Force O&M funds. Because the value of the order exceeded
           $250,000, procurement funds should have been used. Therefore, the
           U.S. Central Command used an incorrect appropriation. Also, the order
           was awarded on September 9, 2005, and some of the goods were not
           delivered until October 17, 2005. The receipt of goods after the DoD
           appropriation expired could not be justified by production lead-time or
           unforeseen delays. Use of FY 2005 O&M funds to satisfy a FY 2006
           requirement does not meet the intent of the bona fide needs rule.

       39. Order FA4814-05-F-A863. A DoD contracting officer awarded purchase
           order FA4814-05-F-A863 to purchase various computer equipment for the
           U.S. Central Command for $46,854 using FY 2005 Air Force O&M funds.
           The order was awarded on September 22, 2005, but the equipment was not
           scheduled to be delivered until November 4, 2005. However, delivery of


                                      56
          the goods was made on December 13, 2005. The receipt of goods after the
          DoD appropriation expired could not be justified by production lead-time
          or unforeseen delays. Use of FY 2005 O&M funds to satisfy FY 2006
          requirements does not meet the intent of the bona fide needs rule.


U.S. Special Operations Command
       40. Order FA4814-05-F-A154. A DoD contracting officer awarded purchase
           order FA4814-05-F-A154 for a file storage/server system for $738,383.
           The U.S. Special Operations Command (USSOCOM) used FY 2005
           Defense-wide O&M funds. Because the value of the order exceeded
           $250,000, procurement funds should have been used. Therefore, the
           USSOCOM used incorrect appropriation.

       41. Order FA4814-05-F-A717. A DoD contracting officer awarded purchase
           order FA4814-05-F-A717 for $159,501, to purchase software using
           FY 2005 Defense-wide O&M funds for USSOCOM. The order was
           awarded on September 8, 2005, and the delivery was scheduled for
           October 8, 2005. The software was delivered on October 7, 2005. The
           receipt of goods after the DoD appropriation expired could not be justified
           by production lead-time or unforeseen delays. Use of FY 2005 O&M
           funds to satisfy FY 2006 requirements does not meet the intent of the bona
           fide needs rule.

       42. Order FA4814-05-F-A860. A DoD contracting officer awarded purchase
           order FA4814-05-F-A860 for $105,997 to purchase a server, using
           FY 2005 Defense-wide O&M funds for USSOCOM. The order was
           awarded on September 20, 2005, but the server was not scheduled to be
           delivered until October 20, 2005. Delivery of the goods was received
           October 4, 2005. The receipt of goods after the DoD appropriation
           expired could not be justified by production lead-time or unforeseen
           delays. Use of FY 2005 O&M funds to satisfy FY 2006 requirements
           does not meet the intent of the bona fide needs rule.

       43. Order FA4814-05-F-A917. A DoD contracting officer awarded purchase
           order FA4814-05-F-A917 for $31,810 to purchase graphic hardware for
           USSOCOM, using FY 2005 Air Force O&M funds. The order was
           awarded on September 26, 2005, but the goods were not scheduled to be
           delivered until October 24, 2005. However, delivery of the goods was
           received on December 7, 2005. The receipt of goods after the DoD
           appropriation expired could not be justified by production lead-time or
           unforeseen delays. Use of FY 2005 O&M funds to satisfy FY 2006
           requirements does not meet the intent of the bona fide needs rule.

       44. Order FA4814-05-F-A895. A DoD contracting officer awarded purchase
           order FA4814-05-F-A895 for computer hardware, software, and licenses
           for $479,630. This order was funded with FY 2005 Defense-wide
           O&M funds. Though the value of the order exceeded $250,000,


                                       57
          O&M funds were correctly used because the goods were not part of an
          overall system and no individual item cost over $250,000. However, the
          order was awarded on September 22, 2005, and scheduled delivery for
          October 22, 2005. The goods were delivered through November 8, 2005.
          The receipt of goods after the DoD appropriation expired could not be
          justified by production lead-time or unforeseen delays. Use of FY 2005
          O&M funds to satisfy FY 2006 requirements does not meet the intent of
          the bona fide needs rule.


Defense Information Systems Agency
       45. Order HC1047-05-F-4561. A DoD contracting officer awarded purchase
           order HC1047-05-F-4561 to purchase a Sun database server for $115,829
           for the Defense Information Systems Agency, using FY 2005 Defense-
           wide O&M funds. The contracting officer awarded the order on
           September 30, 2005, and scheduled delivery for November 1, 2005. The
           server was delivered on October 27, 2005. The receipt of goods after the
           DoD appropriation expired could not be justified by production lead-time
           or unforeseen delays. Use of FY 2005 O&M funds to satisfy an FY 2006
           requirement does not meet the intent of the bona fide needs rule.

       46. Order HC1013-05-F-2810. A DoD contracting officer awarded purchase
           order HC1013-05-F-2810 to purchase Standardized Tactical Entry Point
           Information Assurance Tools, which included assorted hardware and
           software for $4,149,461, using FY 2005 Defense-wide O&M funds for the
           Defense Information Systems Agency. Because the value of the order
           exceeded $250,000, procurement funds should have been used. DoD
           contracting officers awarded the order on August 25, 2005, with a
           scheduled delivery for 21 days from award, September 15, 2005.
           However, the goods were received on November 15, 2005. The receipt of
           goods after the DoD appropriation expired could not be justified because
           standard commercial off-the-shelf items are items readily available from
           other sources. The order was competed among all 8 NASA Scientific and
           Engineering Workstation Procurement vendors in class 12. Use of
           FY 2005 funds to satisfy a FY 2006 requirement does not meet the intent
           of the bona fide needs rule.


Defense Security Service
       47. Order HC1013-05-F-2848. A DoD contracting officer awarded purchase
           order HC1013-05-F-2848 for a 3-year lease of Sun equipment and other
           miscellaneous equipment for $10,918,072. The Defense Security Service
           used FY 2005 Defense-wide O&M funds. Because the value of the order
           exceeded $250,000, procurement funds should have been used. Therefore,
           the Defense Security Service used an incorrect appropriation.




                                      58
Counterintelligence Field Activity
       48. Order HC1013-05-F-3006. A DoD contracting officer awarded purchase
           order HC1013-05-F-3006 to purchase licenses, maintenance, and technical
           support services for $500,000, using FY 2005 O&M funds for the CIFA.
           According to CIFA personnel, Congress provided O&M funds specifically
           for the purchase. The contracting officer awarded the order on
           September 21, 2005, and did not schedule a delivery date. The goods
           were delivered on January 6, 2006, more than 3 months after the end of
           FY 2005. The receipt of goods after the DoD appropriation expired could
           not be justified because of production lead-time or unforeseen delays.
           This order also included severable services that commenced December 13,
           2005. Use of FY 2005 funds to satisfy a FY 2006 requirement does not
           meet the intent of the bona fide needs rule.


DEPARTMENT OF THE TREASURY


Office of the Under Secretary of Defense for Personnel
  and Readiness
       49. Counseling Services. The Office of the Under Secretary of Defense for
           Personnel and Readiness, Quality of Life Office issued MIPR
           DERM40092A329V for $19,000,000 on July 28, 2004, using FY 2004
           O&M funds for counseling services in support of families as a result of the
           Global War on Terrorism and Iraqi Freedom. FedSource accepted the
           MIPR on July 30, 2004. The FedSource, Beaufort office issued task order
           contract number BEA002178 for $18,357,487 on August 5, 2004. Task
           order BEA002178 was cancelled on December 16, 2005, leaving a
           $14,990,411 fund balance. Task order BEA002638 for $14,483,489 was
           issued on March 29, 2005, to continue the counseling services. The task
           order contract period of performance was March 14, 2005, through
           December 31, 2005. The FY 2004 funds were applied to reissue a task
           order in FY 2005. The FY 2004 funds were put on the reissued task order
           contract almost 8 months after the funds were accepted by FedSource,
           Beaufort, and almost 6 months into FY 2006. The contract period of
           performance extends past 12 months from the MIPR acceptance date.
           Further, the elapsed 8 months from MIPR fund acceptance to the
           BEA00238 task order contract award is an unreasonable time; therefore,
           no bona fide need exists.




                                       59
Fort McCoy Army Base, Directorate Support Services
       50. Construction of Main Gate Canopy and Inspection Building. The
           Directorate of Support Services at Fort McCoy sent FedSource
           seven MIPRs totaling $987,846, using FY 2003 Army Reserve O&M
           funds to construct a canopy and vehicle inspection building at the main
           gate. The basic contract in the amount of $896,930 was for the canopy
           and the inspection building. The canopy and inspection building were
           initially funded by MIPR3MDTMSCNPY for $268,629 issued on
           September 30, 2003, and MIPR3VEHNISP01 for $665,703 issued on
           September 30, 2003. The amount obligated on the main gate totaled
           $987,935 which exceeds the limit of $750,000 using O&M funds for
           minor construction; therefore, military construction appropriated funds
           should have been cited. The Directorate of Support Services used an
           incorrect appropriation.

       51. Renovation of Building 454 (Barracks). Fort McCoy Army Base,
           Directorate of Support Services building renovation exceeded the
           $750,000 limit using O&M funds for minor construction. MIPR
           MIPR4MDFE00107 for $813,767 was issued September 17, 2004, using
           FY 2004 Army Reserve O&M funds. The MIPR was for renovation of
           Building 454 into basic officer quarters, including improvements such as
           additional bathrooms to include all new components. FedSource issued
           the basic task order contract number LOS013032 for $762,883 on
           September 28, 2004. The building improvements supported categorizing
           this project as new construction. The total amount obligated for the
           building, $820,355, exceeded the $750,000 limit use of O&M funds for
           minor construction. In addition, a second building (453) was being
           renovated with the same requirements and purpose. See purchase
           number 52 below. As a result, buildings 454 and 453 should have been
           combined as one project and used military construction funds instead of
           O&M funds. The combined cost of the work on the two buildings was
           $1,498,097. The project was split to avoid the long approval process
           necessary to obtain military construction funds. Therefore, the Directorate
           of Support Services at Fort McCoy used incorrect appropriations.

       52. Renovation of Building 453. Building 453 was being renovated from a
           barracks into a visitor officer quarters at Fort McCoy. The Building 453
           layout was reconfigured and improvements made that supported new
           construction, including new bathrooms, fixtures, counters, tubs, and
           closets. Improvements resulted in construction versus repair. The
           Directorate of Support Services personnel at Fort McCoy exceeded the
           minor construction $750,000 dollar threshold by sending
           MIPR3MDFE00085 for $784,252 on September 24, 2003, and an
           amendment for $2,493 on July 12, 2004, to FedSource. The total cost of
           $786,746 used O&M funds. Although the task order contract was
           awarded by FedSource on October 2, 2003, for $735,214, the amount did
           not include the FedSource fee. The planning for both buildings was in
           2003 and requests for military construction funds should have occurred



                                       60
          then. Therefore, the Directorate of Support Services at Fort McCoy used
          an incorrect appropriation.

       53. Construction of Maintenance Buildings. The Directorate of Support
           Services at Fort McCoy did not combine task order LOS007993 for
           $684,639 and task order LOS007994 for $684,639 that were both issued
           by FedSource on September 12, 2003, to construct four new metal
           prefabricated maintenance buildings. The total contract cost for the two
           task orders was $1,369,278. Each of the two task orders was for the
           construction of two maintenance buildings; however, bid proposal data
           established the provision for bidding up to four buildings. Therefore,
           one task order contract should have been issued versus splitting the
           project. Issuing two separate task orders resulted in keeping the contract
           award below the $750,000 military construction threshold. The combined
           contract for the two task order contracts exceeded the $750,000 O&M
           minor military construction threshold. MIPR MIPR3MDFE00078 for
           $730,304 was issued September 9, 2003, and amendment 1 for $8,331 was
           issued on December 29, 2004, for a total of $738,635 to fund two
           maintenance buildings under task order contract LOS007993. Task order
           LOS007994 for two other buildings was funded with MIPR3MDFE00079
           for $730,304, issued on September 9, 2003. All buildings were built by
           the same contractor. Splitting of construction projects occurred to
           circumvent the cost limitation of $750,000 for minor construction.
           Therefore, the Directorate of Support Services at Fort McCoy used an
           incorrect appropriation.

Naval Engineering Facilities Command, Southwest
       54. Transportation Relocation (Task Order LOS013626). The Naval Base
           Ventura County Public Works is now the Naval Engineering Facilities
           Command, Southwest. The Naval Engineering Facilities Command,
           Southwest acquired professional services through FedSource for the
           relocation of the heavy-duty truck hoist support. The Naval Engineering
           Facilities Command, Southwest issued four MIPRs totaling $248,000 in
           September 2004, using FY 2004 O&M funds to obtain services and
           deliverables through the performance of the relocation of heavy-duty truck
           hoist. The MIPRs, N6923204MPX8220, N6923204MPX8221,
           N6923204MPX8222, and N6923204MPX8230, were accepted in
           September 2004. FY 2004 O&M funds partially funded a contract
           awarded on January 8, 2005, for $177,155. Use of FY 2004 O&M funds
           to satisfy FY 2005 requirements does not meet the intent of the bona fide
           needs rule.

       55. Valve Replacement (Task Order LOS014128). The Naval Engineering
           Facilities Command, Southwest acquired professional services through
           FedSource using MIPR N6923204MPX8141 for $95,000, issued on
           May 17, 2004. This was used to purchase water valve replacement
           support in the housing area at Naval Base Ventura County, Point Mugu,
           California. FedSource issued task order contract award LOS014128 for


                                       61
   $81,056 on March 25, 2005. Approximately 10 months lapsed between
   the MIPR acceptance and contract award. Use of FY 2004 O&M funds to
   satisfy FY 2005 requirements does not meet the intent of the bona fide
   needs rule.

56. Design and Acquisition Support (Task Order LOS013101).
    The Naval Engineering Facilities Command, Southwest acquired
    professional services through FedSource for Design and Acquisition
    Support. The Naval Engineering Facilities Command, Southwest issued
    MIPR N6923204MPU8222 for $227,939 and amendment 1 for $9,876 on
    September 17, 2004. The basic MIPR was accepted on September 22,
    2004. The MIPRs cited FY 2004 O&M funds, which expired on
    September 30, 2004. FedSource awarded task order LOS013101 on
    September 30, 2004, for design, acquisition, engineering, program
    development, and database management support services. The task order
    award specified the period of performance to begin on September 30,
    2004, and continue through November 30, 2005, 2 months beyond the
    12-month contract performance limitation. In addition, FedSource Los
    Angeles issued modification 1 on November 23, 2005, for a “no increased
    cost to the Government” extension until February 28, 2006, effective
    November 30, 2005. The task order exceeded the contract period of
    12 months for a severable contract. FY 2004 funds may have been used
    for the extension. Use of FY 2004 O&M funds to satisfy a FY 2006
    requirement does not meet the intent of the bona fide needs rule.

57. Repair Underground Vaults in Parking Apron (Task Order
    LOS013406). The Naval Engineering Facilities Command, Southwest
    purchased services through FedSource to repair underground vaults in the
    parking apron. The Naval Engineering Facilities Command, Southwest
    issued MIPR MIPRN6923204MPX8223 for $177,000 on September 28,
    2004, using FY 2004 O&M funds. FedSource accepted the MIPR on
    September 28, 2004. However, the task order was not awarded until
    November 18, 2004. Use of FY 2004 O&M funds to satisfy FY 2005
    requirements does not meet the intent of the bona fide needs rule.

58. Utilities, Engineering, and Planning Support (Task Order
    LOS013139). The Naval Engineering Facilities Command, Southwest
    used FedSource to purchase management and engineering support services
    to satisfy the overall operational objectives of the Naval Engineering
    Facilities Command, Southwest Utilities and Planning Division. The
    Naval Engineering Facilities Command, Southwest issued MIPRs
    N6923204MPX8195 for $135,000 and N6923204MPX8196 for $31,000
    on September 17, 2004, citing FY 2004 O&M funds. FedSource accepted
    the MIPRs on September 22 and September 23, 2004. In addition, the
    Naval Engineering Facilities Command, Southwest issued MIPR
    N6923204MPX8206 for $153,000 and MIPR N6923204MP27139 for
    $20,000 on September 29, 2004, citing FY 2004 O&M funds. Task order
    LOS013139 was awarded on October 4, 2004, for $578,850. Use of
    FY 2004 O&M funds to satisfy FY 2005 requirements does not meet the
    intent of the bona fide needs rule.



                               62
Headquarters, Air Force Deputy Chief of Staff, Manpower
  and Personnel
       59. Family Child Care Public Awareness Campaign and Family Child
           Care Conference (Task Order STL002274). The Headquarters, Air
           Force Installation and Logistics Service is now the Headquarters, Deputy
           Chief of Staff Manpower and Personnel. The Headquarters, Deputy Chief
           of Staff, Manpower and Personnel issued MIPR NMIPR049209876 for
           $1,900,000 on September 13, 2004, using FY 2004 O&M funds, which
           expired on September 30, 2004. The Headquarters purchased a
           Comprehensive Public Awareness Campaign to heighten awareness
           among current and potential customers of the Extended Duty Child Care,
           Mildly Ill, Missile Care, Air National Guard and Air Force Reserve Home
           Community Care, Returning Home Care, and Family Child Care Subsidy
           programs. The funds were also for the 2005 Family Child Care
           Conference to support families of deployed Air National Guard and
           Air Force Reserve members, tentatively scheduled for July 25–27, 2005.
           FedSource awarded the task order on September 22, 2004, for $1,027,640.
           Additionally, FedSource issued modification 3 on September 19, 2005, for
           a “no increased cost to the Government” extension until January 31, 2006,
           effective September 21, 2005. The contract was extended for a period
           beyond the 12-month contract period from the task order award date. Use
           of FY 2004 O&M funds to satisfy FY 2005 requirements does not meet
           the intent of the bona fide needs rule.

       60. Boys and Girls Club of America (Task Order STL002277). The
           Headquarters, Deputy Chief of Staff, Manpower and Personnel issued
           MIPR NMIPR049209729 for $500,000 on August 16, 2004, using
           FY 2004 O&M funds, which expired September 30, 2004. The
           Headquarters purchased national affiliation fees for Boys and Girls Club
           of America for all participating Air Force youth centers for 2005 and for
           the annual national conference. FY 2004 funds were used to prepay
           FY 2005 fees and conference costs; additionally, the statement of work
           provided that conference costs would be incurred in 2005. FedSource
           awarded the task order on September 27, 2004, for $484,500. Use of
           FY 2004 O&M funds to satisfy FY 2005 requirements does not meet the
           intent of the bona fide needs rule.

       61. Youth Fitness Activities and Kits (Task Order STL002276). The
           Headquarters, Deputy Chief of Staff, Manpower and Personnel issued
           MIPR NMIPR049209876 for $1,900,000 on September 13, 2004, using
           FY 2004 funds, and allocated $80,000 to task order STL002276. The
           MIPR funds expired on September 30, 2004. The MIPR funds were for
           professional services through FedSource for youth fitness activities and
           kits. FedSource awarded task order STL002276 for $82,620 on
           September 22, 2005, with a period of performance from September 23,
           2004 through September 22, 2005. However, the activity packets and
           sport kits were not received in FY 2004. Receipt of goods after the DoD
           appropriation expired could not be justified because of delivery time,

                                       63
          production lead-time, or unforeseen delays. Use of FY 2004 O&M funds
          to satisfy a FY 2005 requirement does not meet the intent of the bona fide
          needs rule.

       62. Entertainment (Task Order STL002433). The Headquarters, Deputy
           Chief of Staff, Manpower and Personnel acquired professional services
           through FedSource to purchase entertainment services, using MIPRs
           NMIPR049209768 for $260,000, issued August 24, 2004, and
           amendment 1 for $200,000, issued on September 9, 2004. They used
           FY 2004 O&M funds, which expired on September 30, 2004. FedSource
           issued task order contract STL002433 for $19,959 on September 8, 2004,
           to obtain quality, live, professional entertainment for the period from
           September 1, 2004, through September 1, 2005. The period of
           performance for the first task, Waking Norman, was scheduled to begin on
           October 21, 2004, and end November 11, 2004. Use of FY 2004 O&M
           funds to satisfy FY 2005 requirements does not meet the intent of the bona
           fide needs rule.

Air Force 452nd Air Mobility Wing
       63. Taxiway Repair (Task Order LOS014181). The March Air Reserve
           Base, 452nd Civil Engineers issued MIPR NG466443040031 for
           $2,997,000 to purchase taxiway widening and a runway repair at the base
           on September 30, 2004, using FY 2004 O&M funds, which expired on
           September 30, 2004. FedSource accepted the MIPR on September 30,
           2004. FedSource issued task order contract number LOS014181 for
           $1,188,042 on April 4, 2005, with a period of performance from
           December 1, 2004, through November 30, 2005. A contract has not been
           established for the runway. Use of FY 2004 funds to satisfy FY 2005
           requirements does not meet the intent of the bona fide needs rule. In
           addition, use of O&M funds was improper for funding the runway and
           taxiway. The Air Force Reserve Command, Chief, Civil Engineering,
           452nd Mission Support Group approved funding for the two airfield
           projects and specifically approved $2,000,000 for the runway repair and
           $997,000 for the taxiway repair. The airfield projects should have been
           addressed as one project. Funding separately gives appearance of
           splitting projects to avoid use of military construction appropriated funds.
           The work contracted for on the task order was major construction and
           exceeded the $750,000 threshold for minor military construction;
           therefore, the military construction appropriations should have been used.
           The 452nd Civil Engineers used the incorrect appropriation.

Joint Personnel Recovery Agency
       64. Management Assistant (Task Order STL001373). The Joint Personnel
           Recovery Agency (JPRA) acquired services from FedSource to obtain a
           management assistant to support the Joint Experimentation and
           Interoperability Directorate within the JPRA. Both RDT&E and O&M
           funds were used to fund the services, under task order STL001373.


                                        64
   FedSource initially issued the task order, STL001373, on June 7, 2004, for
   $33,972. The statement of work for the task order specified that a
   management assistant should be contracted to perform administrative and
   technical support, provide graphics and illustration support, maintain
   project plans and assessment schedules, and provide document and
   conduct file management support. These tasks should be funded with
   O&M funds. The JPRA issued four MIPRs to FedSource to fund this
   purchase of which three MIPRs cited RDT&E funds and one cited
   O&M funds. The first RD&TE MIPR was MIPR F1AF21494G001 for
   $192,000 issued on March 11, 2005. The next two RDT&E MIPRs were
   MIPR NMIPR049208779 and amendment 1, totaling $392,798, of which
   $79,017 in RDT&E funds was allocated to STL001373. The total of
   $125,954 allocated from the three MIPRs designated with RDT&E
   appropriated funds should have used O&M funds, not RDT&E funds.
   O&M funds should have been used to fund the entire task order contract.
   Therefore, JPRA used an incorrect appropriation.

65. Analyst III for Urban Operations Project Support (Task Order
    STL001916). JPRA acquired professional services through FedSource
    for an analyst to conduct RD&TE tasks consisting of assessment
    operations project support experimentation, concept development, field
    testing, and research capabilities in the marketplace to fulfill program
    needs. JPRA issued five MIPRs to fund the purchase: four using
    RDT&E funds and one using O&M funds. JPRA allocated $201,040 from
    four RDT&E MIPRs to partially fund the purchase. FedSource issued the
    basic task order STL001916 for $78,568 on October 26, 2004, using
    RDT&E funds with a period of performance from November 1, 2004,
    through February 28, 2005. Contract modifications were used to extend
    the period of performance, but no modification was issued exercising an
    option period. JPRA issued MIPR F1A215273G0001 for $178,000 on
    September 30, 2005, using FY 2005 O&M funds, of which $48,747
    applied to the contract, even though the work was for RDT&E on urban
    operations project support. This MIPR funded award number 2,
    modification 2. The analyst worked on the task order the entire period of
    performance and the work remained the same for the entire task order.
    Task order STL001916, modification 6, for $47,863 issued November 1,
    2005, was used to fund award number 2, modification 2, for $48,747, and
    this contract action extended the period of performance to February 26,
    2006. This resulted in use of FY 2005 funds for FY 2006 work. Use of
    FY 2005 O&M funds to satisfy requirements in FY 2006 does not meet
    the intent of the bona fide needs rule. Additionally, the task order contract
    is for RDT&E work and use of O&M funds was inappropriate for the task
    order. RDT&E funds should have been used to continue work on the
    project. Therefore, JPRA used an incorrect appropriation.

66. Analyst for Project Support (Task Order STL001457). JPRA acquired
    services for program management support, which required an analyst to
    provide technical guidance on concept technical demonstrations, develop
    management plans for projects, maintain financial records, and provide
    project management functions. The MIPR NMIPR049208724 issued on


                                 65
   May 5, 2004, for $196,980 did not contain a description or include a
   reference to a statement of work to provide a description that was specific,
   definite, and certain. Since no interagency agreement or a MIPR with a
   description exists to support the requirement, JPRA has a potential bona
   fide needs violation.

67. Analyst III (Task Order STL001972). JPRA used task order contract
    STL001972 for an analyst to perform RDT&E on the future combat
    survivor evader locator project. The statement of work provides that an
    analyst will perform subject matter expertise in development and
    integration of combat survivor evader locator capabilities to include
    RDT&E for future combat survivor evader locator capabilities. The
    project scope of work comprises RDT&E work. However, JPRA funded
    the project with both RDT&E and O&M funds. The first four of the five
    MIPRs issued to support task order contract STL001972 used RDT&E
    funds. The initial task order contract STL001972 for $51,414 was issued
    on December 15, 2004, for an analyst assigned to work combat survivor
    evader locator project support. JPRA sent MIPR F1AF215273G001 for
    $178,000 on September 30, 2005, using FY 2005 O&M funds, and
    allocated $49,849 to task order STL001972 to extend of the period of
    performance through February 2006. The analyst scope of work remained
    the same throughout the task order and should have continued to be
    funded with RDT&E funds. Therefore, JPRA used an incorrect
    appropriation. Additionally, FY 2005 funds were used to support work to
    be performed in FY 2006. Partial funds from MIPR F1AF215273G0001
    were allocated to the task order to fund task order modification 2, issued
    on November 1, 2005. The contract modification was used to increase
    funds on the contract in the amount of $48,945 and extend the period of
    performance to February 28, 2006. Use of FY 2005 O&M funds to satisfy
    a FY 2006 requirement does not meet the intent of the bona fide needs
    rule.

68. Analyst (Task Order STL001374). JPRA issued MIPR
    MIPR215273G001 for $178,000 on September 30, 2005, using FY 2005
    O&M funds to purchase analyst services for the Advanced Survivor
    Technology project support. JPRA also issued MIPR F1AF215068G001
    and amendments 1 and 2 to fund $71,485 on task STL001374 with
    O&M funds. The statement of work states that project support will focus
    primarily on the JPRA RDT&E future Advanced Survivor Technology
    capabilities. The task order contract scope of work is RDT&E. RDT&E
    funds should have been used instead of O&M funds. Therefore, JPRA
    used an incorrect appropriation. In addition, FY 2005 funds were used to
    support work that was clearly to be performed in FY 2006. The basic task
    order contract was issued on June 7, 2004, for $64,907, with a period of
    performance from June 5, 2004, through September 30, 2004.
    MIPRF1AF215273G001, issued on September 30, 2005, allocated
    $73,627 to task order STL001374, funded part of task order contract
    award number 3, modification 2 for $34,868 on November 1, 2005. This
    contract action extended the period of performance through January 31,
    2006. Use of FY 2005 O&M funds to satisfy a FY 2006 requirement does
    not meet the intent of the bona fide needs rule.


                                66
Washington Headquarters Services
       69. Applications Consultant (Task Order BAL118884). The Washington
           Headquarters Service purchased services through FedSource for an
           applications consultant. The Washington Headquarters Service issued
           Interagency Agreement DHIA 40362 for $13,000, citing FY 2004 funds.
           FedSource accepted the Interagency Agreement on September 29, 2004, in
           FY 2004; however, the task order contract was awarded on October 27,
           2004, for $11,944. Use of FY 2004 O&M funds to satisfy FY 2005
           requirements does not meet the intent of the bona fide needs rule.




                                     67
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Director, Program Analysis and Evaluation

Department of the Army
Commander, Army Training and Doctrine Command
Assistant Secretary of the Army (Financial Management and Comptroller)
Administrative Assistant to the Secretary of the Army
Commander, Army Accessions Command
Commander, Army Reserve Command
Auditor General, Department of the Army
Commander, Army Intelligence Center
Commander, Army Garrison, Fort McCoy

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Commander, Naval Education and Training Command
Commander, Naval Sea Systems Command
Commander, Navy Reserve Command
Commander, Space and Naval Warfare Systems Command
  Commander, Space and Naval Warfare Systems Center New Orleans
Commander, Naval Facilities Engineering Command Headquarters
  Commander, Naval Engineering Facilities Command, Southwest
Naval Inspector General
Auditor General, Department of the Navy
Commander, Fleet Numerical Meteorology and Oceanography Center
Commander, Office of Naval Intelligence




                                          68
Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Administrative Assistant Secretary of the Air Force
Commander, Electronic Systems Center
Air Force Deputy Chief of Staff, Manpower and Personnel
Commander, 452nd Air Mobility Wing
Auditor General, Department of the Air Force
Commander, Air Force Medical Support Agency

Combatant Commands
Commander, U.S. Southern Command
Commander, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command
  Commander, Joint Personnel Recovery Agency
Commander, U.S. Central Command
  Commander, U.S. Central Command Air Forces
Commander, U.S. Special Operations Command
Commander, U.S. Strategic Command
  Commander, Joint Information Operations Center

Other Defense Organizations
Director, Defense Information Systems Agency
Director, Defense Security Service
Director, Defense Finance and Accounting Service
Director, Washington Headquarters Services
Director, Counterintelligence Field Activity
Director, Defense Manpower Data Center

Non-Defense Federal Organization
Office of Management and Budget
General Services Administration, Inspector General
Department of the Interior, Inspector General
National Aeronautics and Space Administration, Inspector General
Department of the Treasury, Inspector General




                                         69
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        70
Office of Under Secretary of Defense
(Comptroller)/Chief Financial Officer
Comments




                       71
72
73
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Terry L. McKinney
Timothy E. Moore
Christine M. McIsaac
Meredith H. Johnson




                                   75
